<html>
<title> - EXAMINING THE ALLEGATIONS OF MISCONDUCT AGAINST IRS COMMISSIONER JOHN KOSKINEN (PART I)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                EXAMINING THE ALLEGATIONS OF MISCONDUCT
                 AGAINST IRS COMMISSIONER JOHN KOSKINEN
                                (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                           Serial No. 114-73

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                              ___________
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-233 PDF                    WASHINGTON : 2016                         
                       
                       
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  
                 
                       
                       
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                              MAY 24, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4

                               WITNESSES

Honorable Jason Chaffetz, a Representative in Congress from the 
  State of Utah
  Oral Testimony.................................................     7
  Prepared Statement.............................................    11
Honorable Ron DeSantis, a Representative in Congress from the 
  State of Florida
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted by the Honorable Henry C. 
  (Hank) Johnson, Jr., a Representative in Congress from the 
  State of Georgia, and Member, Committee on the Judiciary, to 
  the Honorable Jason Chaffetz, a Representative in Congress from 
  the State of Utah.........................................56<greek-l>
                       deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Prepared statement of the Honorable Elijah E. Cummings, a 
    Representative in Congress from the State of Maryland. This 
    statement is available at the Committee and can also be accessed 
    at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104980

Staff Reports submitted by the Honorable Darrell E. Issa, a 
    Representative in Congress from the State of California, and 
    Member, Committee on the Judiciary. These reports are available at 
    the Committee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104980

 
 EXAMINING THE ALLEGATIONS OF MISCONDUCT AGAINST IRS COMMISSIONER JOHN 
                           KOSKINEN (PART I)

                              ----------                              


                         TUESDAY, MAY 24, 2016

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Chabot, Issa, King, 
Franks, Gohmert, Jordan, Poe, Marino, Gowdy, Labrador, 
Farenthold, Walters, Buck, Ratcliffe, Bishop, Conyers, Lofgren, 
Jackson Lee, Johnson, DelBene, Jeffries, and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Zachary Somers, Parliamentarian & General Counsel; 
Paul Taylor, Chief Counsel, Subcommittee on the Constitution 
and Civil Justice; (Minority) Perry Apelbaum, Staff Director & 
Chief Counsel; Aaron Hiller, Chief Oversight Counsel; Susan 
Jensen, Counsel; Slade Bond, Counsel; and Joseph Ehrenkrantz, 
Legislative Assistant.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order.
    And, without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on 
``Examining the Allegations of Misconduct Against IRS 
Commissioner John Koskinen, Part I.'' And I will begin by 
recognizing myself for an opening statement.
    The Constitution sets forth a system of checks and balances 
which grants each branch of government tools to ensure that no 
branch of government attains too much power. The legislative 
branch's tools include the power to write the laws, the power 
of the purse, the impeachment power, and the power to censure, 
among others. These tools empower Congress to exert oversight 
over the executive and judicial branches, including routing out 
corruption, fraud, and abuse by government officials and taking 
further disciplinary action on behalf of the American people 
when warranted.
    The duty to serve as a check on the other branches, 
including against corruption and abuse, is a solemn one, and 
Congress does not and must not take this responsibility 
lightly. That is why this Committee has scheduled the hearing 
today.
    In 2013, the American people first learned that their own 
government had been singling out conservative groups for 
heightened review by the IRS as they applied for tax-exempt 
status. This IRS targeting scandal was nothing short of 
shocking. It was a political plan to silence the voices of 
groups representing millions of Americans. Conservative groups 
across the Nation were impacted by this targeting, resulting in 
lengthy paperwork requirements, overly burdensome information 
requests, and long, unwarranted delays in their applications.
    In the wake of this scandal, then-IRS-official Lois Lerner 
stepped down from her position, but questions remain about the 
scope of the abuses by the IRS. The allegations of misconduct 
against Koskinen are serious and include the following:
    On his watch, volumes of information crucial to the 
investigation into the IRS targeting scandal were destroyed. 
Before the tapes were destroyed, congressional demands, 
including subpoenas, for information about the IRS targeting 
scandal went unanswered. Koskinen provided misleading testimony 
before the House Oversight and Government Reform Committee 
concerning IRS efforts to provide information to Congress.
    These are very serious allegations of misconduct, and this 
Committee has taken these allegations seriously. Over the past 
several months, this Committee has meticulously pored through 
thousands of pages of information produced by the investigation 
into this matter, resulting in this hearing today, which will 
give the House Oversight and Government Reform Committee the 
opportunity to formally present its findings and evidence to 
the Members of this Committee.
    We will hear from Representative Jason Chaffetz, the 
Chairman of the House Oversight and Government Reform 
Committee, as well as Representative Ron DeSantis, Chairman of 
the House Oversight and Government Reform Subcommittee on 
National Security. They will each have 10 minutes to discuss 
the evidence their Committee investigation has uncovered. 
Chairman Chaffetz will also present a video regarding this 
matter.
    It is worth noting that Commissioner Koskinen was also 
invited to the hearing but he has declined the invitation.
    Following the witnesses' testimony, each Judiciary 
Committee Member will be allowed to ask the witnesses questions 
for 5 minutes.
    It is now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    Before I begin my statement, I ask unanimous consent to 
enter into the record the statements of IRS Commissioner John 
Andrew Koskinen and the gentleman from Maryland, Ranking Member 
Elijah Cummings.
    Mr. Issa. I reserve the right to object.
    Mr. Goodlatte. Does the gentleman----
    Mr. Issa. I object.
    Mr. Goodlatte [continuing]. Wish to be recognized?
    Mr. Issa. I wish to be recognized.
    Mr. Goodlatte. An objection is noted.
    Mr. Issa. If the gentleman would yield?
    Mr. Conyers. Of course.
    Mr. Issa. A point of inquiry related to my objection. The 
witness was invited to come and has delivered us instead a 
self-serving written statement. While telling us in the 
statement he respects the Committee, he is refusing to be here 
for his own impeachment inquiry.
    On what basis would we allow unsworn testimony for what 
should have been a sworn witness under the penalty of perjury?
    Mr. Conyers. May I?
    Mr. Issa. Of course.
    Mr. Conyers. May I tell my colleague that, first of all, 
the gentleman who is the subject of this--this is not an 
impeachment inquiry. I think you used that phrase, and that's 
incorrect.
    Mr. Issa. It's an inquiry into the recommendation for 
impeachment.
    Mr. Conyers. The title of the hearing is ``Examining the 
Allegations of Misconduct Against IRS Commissioner John 
Koskinen, Part I.''
    Mr. Issa. And I appreciate that, but he is, in fact, the 
subject of a referral from another Committee with specificity 
and was called as a witness to have an opportunity under oath 
to clear that up.
    I guess my question is, where would we normally accept, 
from a witness who declined, an unsworn statement, one that 
would not--would be self-serving?
    And, to be candid, Ranking Member Conyers, this is sort of 
Lois Lerner revisited. The opportunity to say what you want to 
say and not be cross-examined would seem to be inappropriate 
from a witness who has declined being here.
    Obviously, you know, he can say whatever he wants, and he 
will be at Ways and Means tomorrow saying what he wants to. The 
question--this is an inquiry into allegations of his 
misconduct, and it is pursuant to a referral from another 
Committee, a serious referral, one that never happened in my 
time----
    Mr. Conyers. Absolutely. I don't quarrel with that 
whatsoever, sir. All I'm saying is that he is not here. He was 
not given the customary 2-weeks' notice. He just came back from 
China last week.
    But I'm not making excuses for his absence. All I'm saying 
is that, since he is not here and he has a statement, I'd like 
to put it in the record. And if you think that that's something 
that he doesn't deserve, I'm bound by your objection.
    Mr. Issa. Mr. Chairman, I would ask that if that opening 
statement be placed in the record it be placed with a provision 
alongside it for the record that, A, he was invited; B, he 
declined; and, C, that the letter has to be taken as not 
witness evidence and self-serving of his not being here.
    As long as we can agree to language that effectively makes 
it clear that this is a self-serving statement by somebody who 
chose not to be here, while tomorrow will be in front of 
another Committee, I'm fine with it being there. But I don't 
want it to be seen as an opening statement, because, quite 
frankly, this written statement is not--this should not have 
the same credibility.
    Mr. Goodlatte. The gentleman has the right to object to the 
statement being made a part of the record. The gentleman can 
ask unanimous consent to withdraw his objection subject to the 
limitations that the gentleman just outlined regarding how the 
matter would appear in the record, but that would, itself, be 
subject to----
    Mr. Issa. I would ask unanimous consent that the pairing be 
placed in so that this can be placed in the record at the 
wishes of the Ranking Member.
    Mr. Goodlatte. For what purpose does the gentleman from 
Texas seek recognition?
    Mr. Poe. Mr. Chairman, I object to the unanimous consent 
that John Koskinen's statement be put in the record at all.
    However, the Ranking Member also asked unanimous consent to 
have the statement of Mr. Elijah Cummings in the record. I do 
not object to that being part of the record, only the statement 
of the IRS Commissioner.
    Without any provisions as to what should be attached or not 
attached, I object to the entire statement. He had the chance 
to be here. He's not.
    Mr. Goodlatte. The Chair will ask if there is objection to 
the unanimous consent request of the gentleman from Michigan to 
place Ranking Member Cummings' statement in the record.
    Being none, that will be made a part of the record.*
---------------------------------------------------------------------------
    *Note: The prepared statement of Mr. Cummings is not printed in 
this hearing record but is on file with the Committee and is available 
at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104980
    Mr. Goodlatte. There is objection heard regarding placing 
the statement of Commissioner Koskinen in the record, and, 
therefore, it will not be placed in the record.
    If there are further discussions regarding under what 
conditions it might be made a part of the record, the Chair 
would be happy to entertain that at any time during the course 
of the hearing. But, at this point, objection is heard, and it 
will not be made a part of the record.
    The gentleman may continue with his opening statement.
    Mr. Conyers. Thank you.
    In the history of our Republic, the House of 
Representatives has voted to impeach a Federal official only 19 
times. I have the honor of having served on this Committee to 
consider 6 of those 19 resolutions, and, as a matter of note, I 
voted in favor of 5 of them. And I helped to draft articles of 
impeachment against then-sitting President Richard Nixon and 
joined with 20 Democrats and 6 Republicans to send 3 of those 
articles to the House floor.
    The lessons I draw from these experiences are hard-earned. 
And, to begin with, the power of impeachment is a solemn 
responsibility entrusted to the House of Representatives by the 
Constitution and to this Committee by our peers.
    The formal impeachment process is not to be joined lightly. 
We do not rush into it for short-term political gain, I'm sure. 
Before we can approve any such resolution, it's our 
responsibility to prove the underlying allegations beyond a 
reasonable doubt. And I suspect that's why this hearing is 
titled the way it is and is moving in that direction, to 
examine the allegations of misconduct, which I think is not 
unfair.
    Now, it's our responsibility to prove underlying 
allegations, even of misconduct, with great seriousness and, I 
think, beyond a reasonable doubt. And once the House authorizes 
us to do so, we must carefully and independently review the 
evidence, even if it's already been analyzed by our colleagues 
on other Committees. And we can only address allegations that 
are actually supported by the record. We cannot infer 
wrongdoing from the facts; we have to prove it.
    And, finally, a successful process must transcend party 
lines. The Framers of the Constitution knew this. Article I of 
the Constitution requires two-thirds of the Senate to convict 
on any article suggesting impeachment. Many in the public know 
this too. When this Committee comes together and decides to 
examine or remove a Federal officer, our constituents know that 
we take the job seriously. When a vote such as this is divided 
on party lines, as it was on one occasion in my service on this 
Committee, we undermine our credibility and make it all but 
impossible to secure conviction in the Senate.
    Mr. Chairman, we're here today because a group of Members, 
a small group of Members, want us to take up House Resolution 
494, a resolution to impeach IRS Commissioner John Koskinen. 
This resolution fails by every measure that I have learned of 
in the course of the hearings in this vein over the years. It 
arises, sad to say, from the worst partisan instincts. It is 
not based in the facts. And it has virtually no chance of 
success, in my view, in the Senate.
    Commissioner Koskinen, from what I can determine, is a good 
and decent civil servant. He took office months after the so-
called targeting scandal had concluded. He then undertook a 
massive effort to respond to each of the investigations into 
the matter. We are here today to consider the allegation that 
the Commissioner deliberately misled Congress as a part of 
those efforts.
    The claim is not that we disagree with his decisions or 
that we question the speed and completeness with which his 
agency provided answers, but that he knowingly and 
intentionally supplied us with false information. Mr. Chairman 
and my colleagues, the record simply does not support this 
charge.
    The Treasury Inspector General for Tax Administration 
investigated these allegations. He concluded, and I quote, ``No 
evidence was uncovered that any IRS employees have been 
directed to destroy or hide information from Congress, the 
Department of Justice, or the inspector general.''
    In addition, career investigators at the Department of 
Justice also looked into these claims. They also found, and I 
quote again, ``No evidence that any official involved in the 
handling of the tax-exempt applications or IRS leadership 
attempted to obstruct justice.''
    It's no wonder then that we have read reports of Speaker 
Ryan doing his best to make certain this measure never reaches 
the floor of the House, as Speaker Boehner did before him.
    It's also not a surprise that many in the Republican 
Conference have been critical of the tactics that forced this 
hearing. Representative Boustany, Chairman for the Subcommittee 
on Tax Policy, has argued that this hearing is a waste of time 
and potentially damaging to our priorities. He told reporters 
last week: ``If we do this, it's going to further delay the 
investigation. I think it's time to move on.''
    Senator Orrin Hatch, the Chairman of the Senate Finance 
Committee, has said that there is simply no interest in an 
impeachment activity in the United States Senate, where a two-
thirds vote would be required for any conviction. When asked 
about Commissioner Koskinen, Senator Hatch said, ``We have a 
very different experience with him. We can have our 
disagreements with him, but that doesn't mean that there's an 
impeachable offense.'' And he added, ``For the most part, he's 
been very cooperative with us.''
    To summarize, Mr. Chairman, the proposed articles have been 
debunked, the investigation itself, by independent 
investigators. The resolution faces stiff bipartisan opposition 
in the House and even worse odds in the United States Senate.
    There are precious few working days left in this Congress. 
I am personally disappointed that we plan to spend not just 
today but an additional day in June discussing these 
unsubstantiated claims. If it's at all possible, Chairman 
Goodlatte, please consider returning the second day to the 
substantive work of this Committee. In any event, I urge you to 
lead us past this distraction quickly and back to the work of 
some actual benefit to the American people.
    And I thank you for the time, and I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Without objection, all other Members' opening statements 
will be made a part of the record.
    We welcome our distinguished witnesses today, both of whom 
are Members of the House Judiciary Committee.
    But, as is our custom, if you would both please rise, we'll 
begin by swearing you in.
    Do you and each of you swear that the testimony that you 
are about to give shall be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Thank you very much. Please be seated.
    And let the record reflect that both witnesses responded in 
the affirmative.
    I will now begin by introducing today's witnesses.
    The first witness is the Honorable Jason Chaffetz. 
Representative Chaffetz has been a Member of the House 
Judiciary Committee since first coming to Congress in 2009. 
Representing the Third District of Utah, he is a Member of the 
Judiciary Subcommittee on Courts, Intellectual Property, and 
the Internet; and the Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations. Since 2015, Mr. Chaffetz 
has served as Chairman of the House Oversight and Government 
Reform Committee.
    Our next witness is the Honorable Ron DeSantis. Since being 
elected to the U.S. House in 2012, Representative DeSantis has 
served on the Judiciary, Foreign Affairs, and Oversight and 
Government Reform Committees. He is currently the Chairman of 
the Oversight Committee's National Security Subcommittee and 
the Vice-Chairman of the Judiciary Committee's Subcommittee on 
the Constitution and Civil Justice.
    Welcome to you both. Your written testimony will be entered 
into the record in its entirety, and I ask that each of you 
summarize your testimony in the time that you are allotted.
    To help you stay within that time, there is a timing light 
on your table. You guys know how this works. When the light 
turns red, that signals that your time has expired. But, given 
the importance of this, we have allotted additional time to 
each of you and for the video that the Chairman has brought 
with him as well.
    We will begin with Chairman Chaffetz.
    Welcome.

TESTIMONY OF THE HONORABLE JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Mr. Chairman, thank you. I appreciate your 
holding this hearing and your indulgence.
    And to Ranking Member Conyers, I enjoy a good working 
relationship with you. I enjoy your friendship, and I expect 
that to continue in the future, and I appreciate the discussion 
today.
    I also want to note and thank Chairman Issa. He was the 
Chairman of the Oversight Committee when much of this work was 
happening, many of these hearings were happening. And through 
his good work and tenacious approach to this, it was an 
important step, and we wouldn't be here today, quite frankly, 
without the good work and leadership of Darrell Issa.
    This is really a simple case, in my mind. When Congress 
asks you a question, you're expected to give a truthful answer. 
And when Congress issues a subpoena, compliance is not 
optional. Imagine if a taxpayer failed to comply with an IRS 
summons or subpoena. What would they do to you? If they asked 
you for those materials, you're expected to produce those 
materials. If you don't, they're going to take you to court, 
and they're probably going to win.
    The IRS targeting scandal was un-American. The IRS is the 
most powerful and feared entity in the United States. The First 
Amendment rights of citizens were trampled upon.
    Now, in fairness, Mr. Koskinen, as the Commissioner of the 
IRS, was not there for the initial targeting. He was brought in 
by President Obama as a turnaround artist, somebody who'd work 
hand-in-hand with Congress to fix the problem.
    From my perspective, he didn't fix the problem; he made it 
worse. There have been numerous hearings, letters, and 
subpoenas issued by a variety of Committees.
    Now, the IRS is no stranger to a summons or a subpoena. 
They know exactly how this works. In fact, on average, they 
issue about 66,000 summons and subpoenas per year, and they 
have since 2010. Failure to obey an IRS summons is a criminal 
violation under 26 USC, section 7210, and carries with it a 
fine up to $1,000 and a year of imprisonment. If you don't 
comply, the IRS is going to come after you. They do prosecute. 
The IRS prevailed in 95 percent of those cases.
    Again, compliance with a subpoena is not optional. 
Providing false testimony before Congress comes with a 
consequence. At least it should. It's a crime. Mr. Koskinen did 
not tell the truth to Congress. He provided false testimony and 
failed to comply with the subpoena. He could've prevented 
evidence from being destroyed, but he didn't, and he didn't 
tell the truth about it.
    Americans are rightfully frustrated about the targeting 
scandal and the lack of accountability. But the case before us 
is about Mr. Koskinen and what he did and did not do which 
permanently deprived the American people of understanding what 
went wrong with their government. It also prevents us, 
Congress, from fully fixing the problem and holding people 
accountable. And there can't be full accountability because the 
evidence was destroyed on Mr. Koskinen's watch and under a 
subpoena.
    The remedy given to us in the Constitution is impeachment. 
It is a remedy designed for Congress as a co-equal voice. The 
Senate gives its advice and consent on confirming Presidential 
appointments, but our Founders in that Constitution also gave 
us an opportunity to remove somebody if they're not serving the 
best interests of the United States of America. The Senate has 
the opportunity to have a co-equal voice on who serves in the 
upper echelons of government, and the safety valve to pull 
somebody out of there for Congress is impeachment. It hasn't 
been done often enough, and I think we must stand up for 
ourselves.
    Now, to give some background, I'm going to show a video. 
It's about 10 minutes. And then we'll get into the very 
specifics of where I think Mr. Koskinen lied.
    [Video shown.]
    Mr. Chaffetz. Mr. Chairman, thank you for allowing us to 
show that video.
    I want to drill down a little bit further on Mr. Koskinen's 
testimony to Congress, especially some of the statements made 
to Congress in June and July of the year 2014.
    When he came to explain why the IRS wouldn't be able to 
produce thousands of Lois Lerner's emails, at that point a 
subpoena had been in place since August of 2013. The subpoena 
was reissued to Mr. Koskinen after he was confirmed, so, by 
then, the subpoena had had his name on it for more than 5 
months.
    On February 2, 2014, Super Bowl Sunday, Kate Duval realized 
that there was a problem with Ms. Lerner's emails and that some 
of them were missing from the IRS production to Congress. Ms. 
Duval was counsel to the Commissioner at the time, and she was 
basically managing the IRS production to Congress.
    The next day, on February 3, Ms. Duval told her colleagues 
at the IRS about the problems she had found. She told the IT 
people. She talked to the people in the Office of Chief 
Counsel. She talked to the Deputy Associate Chief Counsel, 
Thomas Kane. And, by the next day, February 4, Thomas Kane had 
figured out that Lois Lerner's hard drive had crashed back in 
2011 and that that was why many of her emails were missing.
    So the IRS knew in early February that there was a problem 
with Ms. Lerner's emails, and Mr. Koskinen testified that he 
knew in February. This is his quote on a July 23, 2014, 
hearing: ``What I was advised and knew in February was that 
when you look at the emails that had already been provided to 
the Committee and other investigations and, instead of looking 
at them by search terms, looked at them by date, it was clear 
that there were fewer emails in the period through 2011 and 
subsequently. And there was also, I was told--there had been a 
problem with Ms. Lerner's computer.''
    So the question is, what did Mr. Koskinen under subpoena do 
about it? After all, he had the subpoena. He had just learned 
that most crucial evidence covered by the subpoena was missing, 
and so you'd expect him to spring into action.
    Well, let's start with what he did not do. According to the 
Treasury Inspector General for Tax Administration, he failed to 
look in five of the six places Ms. Lerner's emails could've 
existed: the backup tapes, her BlackBerry, the server, the 
backup server, and the loaner--the laptop. In fact, the IRS 
barely looked for the missing emails at all, according to 
TIGTA.
    Now, let's talk about what Mr. Koskinen did do. In April, 
his agency notified the Treasury Department and the White House 
that Ms. Lerner's emails were missing. And then he waited. And 
then he waited some more until June, when the IRS finally told 
Congress by burying a couple of sentences in the fifth page of 
an attachment in a letter to the Senate Finance Committee. That 
was on June 13, 2014.
    That triggered a flurry of hearings in Congress, and Mr. 
Koskinen came up to testify to explain what he said. And then 
he lied. We've got three quotes here I want to share with you, 
among many. But let's look at what he told us on June 20 in 
2014.
    Seven days after finally telling Congress that Ms. Lerner's 
emails were missing, he said, ``Since the start of the 
investigation, every email has been preserved. Nothing has been 
lost. Nothing has been destroyed.''
    That's not true. The investigation began in May of 2012. 
The Inspector General found the IRS destroyed evidence, 422 
backup tapes that contained as many as 24,000 emails to and 
from Ms. Lerner. And that happened on March 4 of 2014, which 
was discovered after they discovered there was a problem.
    I'll go to the second quote, if I could. This is on the 
same day, June 20, 2014. Mr. Koskinen testified before 
Congress: ``We confirmed that backup tapes from 2011 no longer 
existed.''
    That wasn't true either. The backup tapes were intact until 
March 4 of 2014, almost 2 years after the congressional 
investigations began and nearly 1 month after the IRS knew 
there was a problem with Lois Lerner's emails. At best, this is 
gross negligence.
    I'll go to the third quote. To me, this is one of the most 
troubling. This is July 23, another full month afterwards, July 
23 of 2014. He was asked what was meant by the word 
``confirmed.'' He said, `` `Confirmed' means that somebody went 
back and looked and made sure that, in fact, any backup tapes 
that had existed had been recycled.''
    That was completely and totally false. Nobody at the IRS 
went back and confirmed that the tapes had been destroyed. The 
Inspector General interviewed the people who were responsible, 
and they said that nobody had ever asked for the backup tapes.
    In fact, all told, the Inspector General, it took him 15 
days, start to finish, to go find these, and they did recover a 
thousand emails.
    Thanks. You can take that down.
    If they had done so after learning that some of Lerner's 
emails were missing in early February, they could have found 
the backup tapes before they were destroyed. We know this 
because, again, the Inspector General, it only took them 15 
days. Tim Camus, the Deputy Inspector for Investigations at 
TIGTA, summed it up by testifying: ``The best we can determine 
through the investigations, they just simply didn't look for 
those emails. So for the over a thousand emails we found on the 
backup tapes, we found them because we looked for them.''
    We're here today because Mr. Koskinen provided false 
testimony, he failed to comply with a duly issued subpoena, and 
when he knew there was a problem, he failed to properly inform 
Congress in a timely manner. In fact, I would argue that he 
actively misled Congress. Nor has Mr. Koskinen ever made an 
attempt to clarify or amend any of his prior statements. He 
continues to stand by all of these statements. They are not 
true.
    Look at the testimony that wasn't entered into the record. 
Sentence three of the testimony that he put forward, or tried 
to put forward, here says, ``I stand ready to cooperate with 
your Committee with regard to any actions it deems 
appropriate.'' But I notice that he didn't show up at the 
hearing here today even though he was invited.
    And for him to say later on page 4, ``I testified 
truthfully and to the best of my knowledge in answering 
questions concerning the search for and production of emails 
related to the investigation,'' he still doesn't get it, 
because that's not true.
    Mr. Johnson. Mr. Chairman? Regular order.
    Mr. Goodlatte. Could the gentleman----
    Mr. Johnson. Regular order, sir.
    Mr. Goodlatte. If the gentleman----
    Mr. Chaffetz. That was my concluding comment. Thank you.
    [The prepared statement of Mr. Chaffetz follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                               __________
                               
                               
    Mr. Goodlatte. The Chair thanks the Chairman of the 
Oversight and Government Reform Committee and is now pleased to 
recognize and welcome Congressman DeSantis.

 TESTIMONY OF THE HONORABLE RON DeSANTIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. DeSantis. Thank you, Mr. Chairman, Ranking Member 
Conyers, my colleagues on the Committee.
    Although I didn't know it at the time, the first exposure I 
had to the IRS targeting scandal occurred long before that day 
in May 2013 when Lois Lerner publicly revealed the existence of 
improper targeting by the IRS. That she did this by infamously 
planting a question at a legal conference in order to preempt 
the forthcoming IG report was a clear indication that the IRS 
had improperly treated American citizens who were doing nothing 
more than seeking to exercise their First Amendment rights.
    Once this news broke, I immediately thought back to the 
previous year. I was not a Member of this body. I was running 
for office for the first time. And, as is customary in 
campaigns, I made a point to speak to as many groups as I could 
find.
    In one instance, the leaders of one group dedicated to 
educating their fellow Americans on the virtues of 
constitutional government grew apprehensive when I showed up 
and requested to speak. As a candidate for office, they 
explained my speaking before the group could cause them 
problems with the IRS, an agency that they felt had mistreated 
their group by refusing to grant them tax-exempt status.
    I was in disbelief. It seemed to me that these folks were 
being paranoid. Why would the IRS care about a small group 
seeking tax-exempt status? Turned out my reaction was wrong and 
there was good reason to be concerned about the behavior of the 
IRS. And I've always thought about that as we've done this 
investigation.
    As a Member of the Oversight Committee, I join my 
colleagues in seeking to ascertain the truth about the conduct 
of the IRS and its employees like Lois Lerner.
    Chairman Chaffetz has done a good job outlining the extent 
to which the IRS, under Commissioner Koskinen, has stonewalled 
and obstructed attempts by Congress to find out the truth about 
the conduct of the IRS.
    Koskinen pledged to be transparent and to alert Congress 
and the American people about problems with the investigation 
as soon as he knew about them. Yet he failed to alert the 
Congress about the gap discovered in Lerner's emails for 4 
months.
    Koskinen testified that every email had been preserved 
since the start of the investigation. Yet the IRS destroyed 
over 400 backup tapes containing as many as 24,000 of Lois 
Lerner's emails in March of 2014. These emails, of course, were 
the subject of an internal preservation order and two 
congressional subpoenas.
    Koskinen testified that the backup tapes from 2011 had been 
recycled pursuant to normal IRS policy. Yet the 400 backup 
tapes weren't destroyed until March of 2014. And, moreover, the 
Inspector General was able, by doing a cursory investigation, 
to identify some backup tapes that had not been recycled.
    Koskinen testified that the IRS had gone to great lengths 
to make sure that all emails were produced. But, as the 
Chairman pointed out, it failed to even look at Lerner's mobile 
device, the email server, backup server, loaner laptop, and IRS 
backup tapes, all of which were examined by the Inspector 
General.
    So, in this matter, there is really no dispute about the 
facts. The IRS destroyed up to 24,000 of Lois Lerner's emails 
under 2 subpoenas. Commissioner Koskinen made several 
statements in testimony before Congress that are false. And the 
IRS failed to produce all of the emails it had in its 
possession, as well as failing to do basic due diligence by not 
looking in obvious places for Lerner's emails. This is cut-and-
dry.
    So this sorry train of false statements and dereliction of 
duty represents an affront to the authority of this House. The 
American people had a right to get the facts regarding the IRS 
targeting, and the IRS had a duty to comply with the 
congressional investigation. Instead, the IRS stonewalled us. 
Thousands of email have been destroyed. The American people may 
very well never get the entire truth as it relates to this 
scandal.
    Now, it would be unthinkable for a taxpayer to treat an IRS 
audit the way the IRS has treated the congressional 
investigation. If a taxpayer destroyed documents subject to a 
summons by the IRS, the taxpayer would be in a world of hurt. 
If the taxpayer made false statements to the IRS in response to 
an investigation, it's safe to say that the taxpayer would not 
get away with it. If a taxpayer shirked basic compliance with 
an IRS investigation, it's a good bet that the investigation 
would not simply end.
    So the question is, is it acceptable for the head of one of 
the most powerful agencies in government to operate under a 
lower standard of conduct than that which is applied to the 
taxpayers the Commissioner is charged with auditing? I have no 
doubt that American taxpayers find such an arrangement to be 
unacceptable. Surely this House should also find it 
unacceptable.
    As of today, not a single individual has been held 
accountable in any way for what happened with the IRS. If 
Commissioner Koskinen can get away with this conduct, then 
other executive branch agencies will have a blueprint of how to 
stymie the Congress when it conducts legitimate oversight. This 
will further erode the power of the Congress, which is arguably 
at its historical nadir.
    The Constitution contains mechanisms for self-defense that 
can be used to check abuses by civil officers in the executive 
branch. We in this body should use them. It's a matter of 
fairness for the American people, accountability for the 
executive branch, and self-respect for this institution.
    I thank the Chairman for the time.
    [The prepared statement of Mr. DeSantis follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Goodlatte. The Chair thanks the gentleman.
    We will now proceed under the 5-minute rule with questions 
for witnesses, and I'll begin by recognizing myself.
    The report of the investigation by the Treasury Inspector 
General for Tax Administration, or TIGTA, concluded in its 2015 
report as follows, and I quote: ``The investigation revealed 
that the backup tapes were destroyed as a result of IRS 
management failing to ensure that a May 22, 2013, email 
directive from IRS Chief Technology Officer concerning the 
preservation of electronic email media was fully understood and 
followed by all of the IRS employees responsible for handling 
and disposing of email backup media.''
    Now, my understanding is that Commissioner Koskinen was 
brought in, appointed Commissioner for the purpose of restoring 
the credibility of the IRS following this horrific scandal, and 
that part of restoring that credibility would be coming clean, 
making sure that the investigations conducted by various 
Committees here in the House of Representatives were responded 
to appropriately with the information that they requested, and 
that, in doing so, one would follow all the chains of evidence 
within one's organization that he is now the head of to find 
where that might go and then send people there and say, ``What 
do you have?'' Because, according to the evidence that you've 
brought forward today, that was never done.
    So I would like to hear from each of you your understanding 
of to what extent Commissioner Koskinen is responsible for the 
management of the IRS and for this management failure.
    Mr. Chaffetz. Thank you.
    He has the duty and obligation, a legal obligation, under a 
subpoena to comply with that subpoena and do everything he can 
in his power to make sure that he's doing that. He testified in 
multiple Committees and multiple times, in addition to, I 
believe, letters, saying that he was making every effort, that 
he had spent $18 million dollars.
    Mr. Goodlatte. Did he ever break that down for you? I saw 
those statements as part of the video. Did he ever say, ``And I 
did this and I did this and I did this, and we spent this money 
for this and this and this''?
    Mr. Chaffetz. We can find--nor can TIGTA, based on the 
report--find no proactive evidence that the Commissioner did 
anything proactively to actually recover those tapes from the 
source of which they were destroyed.
    It took the Inspector--I guess the comparison is the 
Inspector General. The Inspector General, it took him, start to 
finish, 15 days to go find them, and the Commissioner had years 
and millions of dollars of resource and didn't even ask at the 
basic sources.
    Mr. Goodlatte. Mr. DeSantis?
    Mr. DeSantis. What really does it for me is you had these 
backup tapes in West Virginia, and the Inspector General 
testified about what he did. He got in his car, and he drove to 
West Virginia, and he asked for the backup tapes.
    So when you start talking about spending $18 million, what 
does it cost for gas to get to West Virginia and back? Fifty 
bucks? Sixty bucks? And he goes there and he's able to recover 
some of the tapes. Now, of course, others were destroyed.
    But the people at the backup tape facility said the IRS 
never even requested any of the backup tapes. And so I think 
that that says a lot about his leadership, and I think it 
shows--it undercuts his claim that they went to great lengths 
to get the information.
    Mr. Goodlatte. And, very specifically, with regard to that 
very facility, to further quote from the TIGTA report, 
``Although they existed until March 4, 2014, the backup tapes 
containing Lerner's emails were destroyed because IRS employees 
who shipped the backup tapes and server hard drives did not 
understand their responsibility to comply with the Chief 
Technology Officer's May 2013 email directive to preserve 
electronic backup media, and the Martinsburg employees who 
destroyed the backup tapes on March 4, 2014, misinterpreted the 
directive.''
    As you understand it, who was responsible for making sure 
IRS employees understood that May 2013 directive?
    Mr. Chaffetz. The Commissioner of the IRS. That's who we 
issued the subpoena to.
    Mr. Goodlatte. Mr. DeSantis?
    Mr. DeSantis. I concur.
    Mr. Goodlatte. Thank you very much, both of you.
    I now recognize the gentleman from Michigan, Mr. Conyers, 
for his questions.
    Mr. Conyers. May I thank my two colleagues for their 
testimony and their concern about this matter.
    But is there any way, Mr. Chaffetz, that we could determine 
who was on the tape that you asked and received consent to play 
for 10 minutes?
    Mr. Chaffetz. I'm sorry, the question is who was on the 
tape?
    Mr. Conyers. Yeah, who was the woman on the tape that was 
interpreting it? Can you tell us anything about----
    Mr. Chaffetz. Oh. She's a staff member for the Oversight 
and Government Reform Committee. You mean the voiceover?
    Mr. Conyers. Yes.
    Mr. Chaffetz. Yes. She was a staff person for the Oversight 
Committee.
    Mr. Conyers. Uh-huh. Well, I didn't know that before just 
now. And I'm sorry I didn't--I don't want to raise any more 
objections than have already been raised here this morning, but 
it seemed a little bit unusual that this was a tape--that you 
didn't identify who it was before it started playing.
    So what I'm concerned with is, are we talking about issues 
in IRS--which is under the usual criticism and, in these recent 
circumstances, even more than the normal criticism that they 
usually receive--are we talking about we don't like the way 
they're doing business and we think that they made some 
mistakes and that they may have made even misstatements--or the 
present Commissioner--have made statements that we should be 
questioning or challenging, as we normally do in this 
Committee?
    And that seems to me to be the gist of the comments that 
I've received from my two learned colleagues on the Committee 
that have testified here today. ``We don't like what 
happened.''
    Mr. Chaffetz. Can I----
    Mr. Conyers. Sure.
    Mr. Chaffetz [continuing]. Put some color on that a little 
bit?
    Mr. Conyers. Please do.
    Mr. Chaffetz. The first part, it's important to understand 
the context of why these emails are so important. Because the 
targeting of Americans, the suppression of their First 
Amendment rights is something I know in a bipartisan way we 
take very seriously.
    The facts before us on the impeachment go solely to what 
Mr. Koskinen did and did not do when he was under subpoena. And 
he provided--there was a lot of gross negligence. There were 
things that he should've done that he could've done. But he 
also----
    Mr. Conyers. But is gross negligence an impeachable 
offense?
    Mr. Chaffetz. I think that is part of it, yes. Yes, I do. 
In fact, in 1974, the House Judiciary Committee came up with a 
report, and it talked about the standard by which an 
impeachable offense should be held. And I happen to concur with 
that.
    Mr. Conyers. Well, I may too. I haven't recalled it. But I 
was there for that, and it----
    Mr. Goodlatte. You're the only one.
    Mr. Conyers. That's right. And I want to make----
    Mr. Chaffetz. I was 7. I was playing soccer.
    Mr. Conyers. Uh-huh. Well, you're excused for not knowing 
about it until much later.
    But the whole idea that 19 impeachment hearings have been 
held in almost a couple hundred years, is this being a little 
heavy-handed about this matter?
    I mean, I probably disagree with some of the IRS 
Commissioner's views and conduct themselves, but we're 
examining the allegations of misconduct against the IRS 
Commissioner, and I feel that if we're talking about another 
hearing on this same subject, it seems to me a little bit 
overbroad. And I think that we ought to move a little bit more 
carefully on this.
    I'm going to have to examine all of the statements made 
here today. And it seems to me that we really ought to move 
with a little more discretion. There have been statements of 
hearsay, of allegations, that whether they are provable or not 
I just don't know and I'm trying to find out. And, of course, I 
give you the benefit of doubt because of your passion and the 
great work you've done on it since you were 7 in this area.
    Do you see what I'm describing?
    Mr. Chaffetz. I can understand and respect that we may 
disagree on the remedy, but I think what we would find is that, 
in fact, we were lied to in Congress, we were misled in 
Congress, that there was gross negligence, that there was a 
duty and obligation that the IRS, as much as anybody, when they 
issue 60,000 subpoenas and summons per year, they know how this 
works. And that, I think we can come to an agreement to.
    Mr. Conyers. Yeah. Well, I agree with you that we ought to 
look at these much more carefully, but it's sort of hard, at 
this point, for me to accept them or say that they're probably 
right or that mistakes were made. And I'm sure that they were 
made. But there seems to be an anti-IRS Commissioner 
environment here that makes it very difficult for me to go 
forward without an investigation of all that's been said this 
morning.
    And I thank the gentleman.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from California, Mr. Issa, for 5 
minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Chairman Chaffetz, do you remember the April 7, 2014, staff 
report?
    Mr. Chaffetz. Yes.
    Mr. Issa. I'd ask that that be placed in the record.**
---------------------------------------------------------------------------
    **Note: The report referred to is not printed in this hearing 
record but is on file with the Committee and is available at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104980
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    Mr. Issa. Thank you.
    April 7, 2014, extensive documentation about the cover---
the not coverup but what we had already discovered. And then 
June 20, 2014: ``Since the start of this investigation, every 
email has been preserved.'' Now, that's a quote under oath by 
the Commissioner, correct?
    Mr. Chaffetz. Yes.
    Mr. Issa. I want to--you know, you and I are not lawyers, 
so we'll tax each other a little bit on a constitutional 
question. According to Wikipedia, at least, the definition of 
high crimes and misdemeanor constitutionally says it covers 
allegations of misconduct, particularly of officials, such as 
perjury of oath, abuse of authority, bribery, intimidation, 
misuse of assets, failure to supervise, dereliction of duty, 
conduct unbecoming, refusal to obey a lawful order/subpoena.
    So I just want to go through the last several there. Is it 
your understanding that high crimes and misdemeanors include 
failure to supervise?
    Mr. Chaffetz. Yes.
    Mr. Issa. Dereliction of duty?
    Mr. Chaffetz. Yes.
    Mr. Issa. Conduct unbecoming?
    Mr. Chaffetz. Yes.
    Mr. Issa. Refusal to obey a lawful order?
    Mr. Chaffetz. Yes.
    Mr. Issa. Under both your chairmanship and my chairmanship, 
did we issue subpoenas that were, in fact, not obeyed?
    Mr. Chaffetz. Yes. August of 2013 and February 14 of 2014.
    Mr. Issa. Just before leaving office, I issued a December 
23, 2014, staff report. Do you remember that one?
    Mr. Chaffetz. Yes.
    Mr. Issa. I'd ask that that be placed in the record.***
---------------------------------------------------------------------------
    ***Note: The report referred to is not printed in this hearing 
record but is on file with the Committee and is available at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104980
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    Mr. Issa. At that time, hadn't we as a Committee already 
recognized that there had been failure to preserve--in other 
words, failure to obey the subpoena, a lawful order? Hadn't we 
already determined that there had been conduct unbecoming by 
Lois Lerner? Hadn't we already figured that the Commissioner 
and his political-appointed subordinates had failed to 
supervise and were guilty of dereliction of duty?
    Mr. Chaffetz. Yes.
    Mr. Issa. And in July, I believe, of last year, didn't you 
call on the Commissioner to resign?
    Mr. Chaffetz. Yes.
    Mr. Issa. And the Ranking Member very aptly mentioned that 
we've only had 19 impeachments in the history of this great 
Republic and that he had participated in many of them. But the 
history of impeachment--haven't we threatened impeachment or 
called on the resignation of Cabinet and sub-Cabinet officers 
hundreds and hundreds of times and on judges hundreds and 
hundreds of times, and haven't they, in the ordinary course, 
either quit or been fired by the President?
    Mr. Chaffetz. Yes. That's happened many times.
    Mr. Issa. So you're here today because, almost a year ago, 
after multiple very lengthy documents, after millions of 
dollars and countless thousands of hours, you had determined 
that, one, they had targeted conservatives for their belief at 
the IRS, that the Commissioner had come in and that he had been 
guilty of failure to properly supervise, given us false 
statements that either he knew were false or he was too lazy 
and too negligent to, in fact, verify.
    Mr. Chaffetz. Yes.
    Mr. Issa. So, if I understand correctly, you're here 
because you've exhausted other remedies.
    Mr. Chaffetz. Providing false testimony is to Congress--and 
rather than Congress continuing to whine and complain about the 
lack of inaction in the executive branch, the Founders gave us 
tools, and they gave us tools to defend ourselves and take care 
of ourselves and to provide a consequence.
    Mr. Issa. Mr. Chairman, are you familiar with the criminal 
referral by the Ways and Means Committee----
    Mr. Chaffetz. Yes.
    Mr. Issa [continuing]. Against Lois Lerner?
    Mr. Chaffetz. Yes.
    Mr. Issa. And under that, as I understand, the law said 
that the U.S. attorney for the District of Columbia shall 
present to a grand jury those criminal articles against Lois 
Lerner. What happened to those?
    Mr. Chaffetz. There was no criminal referral. After 10 
months of review, they decided not to present those to the 
grand jury.
    Mr. Issa. So even though the Ways and Means Committee under 
a statute had delivered a document that ordered the U.S. 
attorney to perform an act, under this Justice Department of 
this President, they chose to not obey that law. Isn't that 
correct?
    Mr. Chaffetz. That's my understanding.
    Mr. Issa. So if you were to do similarly and refer the IRS 
Commissioner specifically for his false statements and if you 
found it for criminal purposes, you would expect the same thing 
to happen, that it would not be presented?
    Mr. Chaffetz. Perhaps. And different Members have different 
views on this. I look at this as the remedy that the Founders 
gave us. It hasn't been exercised in a while, but that is the 
tool that they gave us.
    Mr. Issa. And you're here today just after the General 
Accountability Office, a nonpartisan part of Congress, found 
that conservative groups are still being targeted as we speak. 
Is that correct?
    Mr. Chaffetz. That is correct. In fact, they said, ``could 
select organizations for examinations in an unfair manner.'' 
And it goes on to say, ``based on an organization's religious, 
educational, political, and other views.''
    Commissioner Koskinen has not resolved that problem. It 
continues today. And based on his most latest comments, he 
doesn't think he's misspoken in any way, shape, or form.
    Mr. Issa. So you're here today because you've exhausted 
other remedies and because the remedy for someone who has lost 
the confidence of the Congress, lost the confidence of the 
American people, failed to fix the problem after more than 2 
years, or, if you will, failure to supervise, dereliction of 
duty, conduct unbecoming, and a refusal to obey lawful orders--
that's why you're here, isn't it?
    Mr. Chaffetz. It is.
    It's important to note that most Members erroneously 
believe that when President Obama steps down and we get a new 
President that the Commissioner would naturally do that as 
well. That's not true. When he was confirmed in December of 
2013, his being the Commissioner continues until November of 
2017.
    So the remedy is, I think, urgent. We have 90,000 good, 
hardworking people at the IRS, but they are mismanaged, and 
they are being led by somebody who is lying to Congress.
    Mr. Issa. Final question. Kate Duval discovered on Super 
Bowl Sunday, more than a month before the tapes were 
destroyed----
    Mr. Chaffetz. Right.
    Mr. Issa [continuing]. That they had this gap. Was she a 
nonconfirmed but a political appointee, an appointee directly 
of this Commissioner?
    Mr. Chaffetz. Yes, she was.
    Mr. Issa. Thank you.
    I thank the Chairman and yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Let me thank my colleagues for their 
presentation and their service to this Nation. I hold the 
responsibilities, however, of the Judiciary Committee 
sacrosanct and of a great moment and great responsibility. We 
are the protectors of the Constitution. And as the authority 
given to us, this House, as a House having the sole authority 
to impeach, though I note very clearly that this is not an 
impeachment hearing, I take the responsibility very seriously.
    To Mr. Conyers, let me say that I associate myself with 
your line of reasoning, and I promise not to hold your wisdom 
and experience and legal scholarship against you. So I thank 
you so very much for all that you have offered to us.
    Bad behavior, inappropriate answering of questions, to my 
very fine witnesses, may be grounds for being in contempt of 
Congress and any other admonition that we'd want to give.
    I hold to two points that you've made. And that is that 
there must be a relationship between witnesses from the 
Administration, no matter which Administration it is, and 
Congress of forthrightness. I also hold to the point that the 
First Amendment, freedom of speech and thought, are, again, 
very high callings of this Nation, probably why so many have 
tried to immigrate to this Nation, because of the freedoms that 
we give. But I also think it's the responsibility of Congress 
to be factual and temperate.
    So let me read this letter to you coming from the 
Department of Justice recently. And that is, ``In collaboration 
with the FBI and Treasury Inspector General for Tax 
Administration, the Department's Criminal and Civil Rights 
Division conducted an exhaustive probe.'' By the way, there was 
$20 million spent, 160,000 hours of staff work. ``We conducted 
more than 100 witness interviews''--that was by the IRS--
``collected more than 1 million pages of IRS documents, 
analyzed almost 500 tax-exemption applications, examined the 
role and potential culpability of scores of IRS employees, and 
considered the applicability of civil rights tax administration 
obstruction statutes. Our investigation uncovered substantial 
evidence of mismanagement, poor judgment, and institutional 
inertia, leading to the belief by many tax-exempt applicants 
that the IRS targeted them based on their political viewpoints. 
But poor management is not a crime. We found no evidence that 
any IRS official acted based on political, discriminatory, 
corrupt, or other inappropriate motives that would support a 
criminal prosecution. We also found no evidence that any 
official involved in the handling of a tax-exempt application 
or IRS leadership attempted to obstruct justice. Based on the 
evidence developed in this investigation, the recommendation of 
the experienced career prosecutors and supervising attorneys at 
the Department of Justice, we are closing our investigation and 
will not seek any criminal charges.''
    I realize that is not impeachment, but let me just say 
this, Mr. Chaffetz, if I could ask. ``No evidence was uncovered 
that any IRS employees had been directed to destroy or hide 
information from Congress, the DOJ, or TIGTA.'' Do you want to 
quarrel with that extensive investigation?
    Mr. Chaffetz. I think you're conflating two different 
topics. What we are most concerned about is Mr. Koskinen's 
actions under the subpoena. That is not what the--that is not 
what the FBI----
    Ms. Jackson Lee. But the premise of the actions are dealing 
with the whole litany of issues. I looked at the 10-minute 
presentation. You had Ms. Lerner, you had all of that.
    Just answer ``yes'' or ``no.'' The premise is, of course, 
all the information and charges made about discriminating 
against conservative groups, are they not?
    Mr. Chaffetz. The underlying concern and need for the 
investigation in the documents----
    Ms. Jackson Lee. Came about through all of that.
    Mr. Chaffetz. Yes.
    Ms. Jackson Lee. Right. And so the basis of which the TIGTA 
and DOJ investigators, they found no evidence to suggest any 
crime. And so, in respect to the Commissioner, then his answers 
cannot be part of a crime if they found no basis for such 
crime. And if he's answering as best of his knowledge, then he 
cannot be attributable--maybe bad behavior, but he cannot be 
attributable to an impeachable offense.
    Let me also raise this question. Mr. Issa asked you----
    Mr. Chaffetz. I would disagree with that, by the way.
    Ms. Jackson Lee. And that's why we have that right of 
disagreement. And this is the impeachment Committee.
    Mr. Issa asked you if we had threatened the impeachment of 
judges and Cabinet officers hundreds and hundreds of times. You 
said yes. If that turns out to be untrue, have you given us, 
yourself, false testimony and should you be removed from 
office?
    Mr. Chaffetz. Well, I hope I've given everything as 
accurate, but if I find that there is something inaccurate, I 
have a duty and obligation as swiftly as possible to correct 
the record. And in this case with Mr. Koskinen, he still stands 
by all those statements I've showed you. He doesn't believe 
he's made any misstatement to date. And I think that's the 
difference.
    Ms. Jackson Lee. I respect your work. I respect you. And I 
respect Mr. DeSantis as well. I don't want to see any single 
group, conservative or otherwise, be discriminated against.
    As we review these materials, I believe, even though this 
is not an impeachment proceeding, there are no impeachable 
offenses according to as we have defined them and in the 
Madison Papers.
    But I'd also say that Mr.--the IRS Commissioner, there is 
no definitive proof about him being connected to the underlying 
premise. And, to the best of his ability, all of the materials 
that we have, including--even though the DOJ did not point us 
directly to the subpoena, suggests that he answered it as 
effectively and truthfully as he can.
    Mr. Issa. Will the gentlelady yield?
    Ms. Jackson Lee. I'd be happy to yield.
    Mr. Goodlatte. The time of the gentlewoman has expired. 
Without objection, the gentlewoman is recognized for an 
additional minute so she can yield to the gentleman from 
California.
    Mr. Issa. I thank both of you.
    In the case of the Scooter Libby conviction, my 
understanding is he was alleged to have given an untruthful 
statement about what ultimately was not determined to be a 
crime. He had no part in revealing the Valerie Plame identity. 
And yet he still was disbarred and criminally indicted.
    So my understanding is false testimony or dereliction of 
duty is still impeachable, whether or not the Justice 
Department determines there is a crime. I think Mr. Conyers 
would confirm that that's not--I don't believe that that's a 
question before us, as to the Commissioner's possibility of 
being found to have failed to meet his obligations, which is 
the allegation that underlies the Chairman.
    I yield back.
    Ms. Jackson Lee. If I may, just in the moment's time left 
over, Scooter Libby had personal knowledge of the facts, the 
underlying facts. This is the point that I was making. I do not 
see any proof here, including the 10-minute presentation, to 
suggest that Commissioner Koskinen had any personal knowledge 
of the facts and the occurrences. To the best of his ability, 
being the Commissioner, he directed 160,000 hours, $20 million, 
and could not find--or presented what he could find and 
represented that he presented what he could find.
    And, previously, the DOJ and the Treasury Inspector General 
found nothing that said that the IRS was discriminating against 
conservative groups and liberal groups. I stand with the 
President, which says, if it was being done, then clean it up. 
But----
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Ms. Jackson Lee [continuing]. The Commissioner is not 
impeachable at this time.
    I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for not only your testimony but your 
deep and diligent due effort on here on this, and also Chairman 
Issa, in leading on this.
    This goes so deep, as I listen to this testimony here 
today, and try to make sense of this timeline. But I'd like to 
back up a little bit and ask you, Chairman Chaffetz, what was 
the first date that the public became aware or you became aware 
that there was a problem with the IRS potentially targeting 
conservative organizations?
    Mr. Chaffetz. I think that goes back to 2011, if I recall, 
Dave Camp and the Ways and Means Committee.
    Mr. King. That would be the first formal, with his letter 
to the IRS. But it must have been in the public eye prior to 
that. Are we working with a date that's probably a half a year 
ahead of that period of time?
    Mr. Chaffetz. I don't recall when the first complaints 
started to come in, but there were groups that were complaining 
that their applications were being held for unknown reasons.
    Mr. King. And this was under then-IRS Commissioner Doug 
Shulman?
    Mr. Chaffetz. There have been a couple of different IRS 
Commissioners through this process, yes.
    Mr. King. And so I would turn to this. The tapes were 
destroyed. Do we know the exact date that they were destroyed?
    Mr. Chaffetz. Yes, we do. I believe it was March 4, if I 
recall, of 2014.
    Mr. King. Okay. March 4, 2014. If we know the exact date, 
then do we know the name of the individual that physically 
destroyed them?
    Mr. Chaffetz. The Inspector General did interview some 
people who worked there. I don't have that name at my 
fingertips, but it is, I believe, in the TIGTA report. I'd have 
to confirm that, but they did--we're relying on the Inspector 
General, who interviewed these people.
    Mr. King. But we think that we do know the name of that 
individual, the Inspector General knows the name of that 
individual.
    Would you have any knowledge as to whether Commissioner 
Koskinen had confronted that individual to ascertain that 
truth, as you would if you were a manager?
    Mr. Chaffetz. I believe the Inspector General testified, as 
I recall, that he saw no evidence that there was any attempt or 
communication with them to confirm the existence of these 
tapes. And, again, the Inspector General found them in 15 days.
    Mr. King. And so we're dealing with, among other 
allegations here, perjury and obstruction of justice. And I 
would ask if you've speculated as to why one would leave 
themselves vulnerable for such charges. What could be, let's 
say, more imposing than such charges? And either witness I'd be 
happy to hear.
    Mr. Chaffetz. It's hard to understand nor can I 
definitively identify the motive. But I also think there is an 
underlying belief in the executive branch that the legislative 
branch isn't going to stand up for itself. I think that 
permeates far beyond this. I think they know they can run out 
the clock, they can provide or not provide, and just ignore. I 
mean, for this hearing here today, the IRS Commissioner was 
invited to testify and he just said no.
    Mr. King. I just believe it would be completely possible to 
impeach him without inviting him back again, and I would just 
encourage that. And if he were to invite himself, we should 
consider his request.
    Mr. DeSantis, do you have something to add to this that 
I've left out?
    Mr. DeSantis. Well, I just think that it's frustrating 
because if a taxpayer treated the IRS the way the IRS has 
treated the Congress that just wouldn't fly. I think we all 
know that. I think you can talk to people who've had dealings 
with the IRS in the private sector, and they laugh when you 
say, you know, could you just allow evidence to be destroyed 
that was the subject of a summons? Or, you know, what if you 
made false statements, is that fine? Or what if they asked you 
to do certain things and you just decided not to do it? And 
I've yet to find somebody who thinks that would be acceptable.
    Mr. King. Okay. But are we addressing here the real central 
point? Because I think there's another point, and I think it is 
that there must have been a motive. If the IRS comes to me and 
insists that they have my documents, then I'm going to provide 
them because it's easier to do so than it is to face the wrath 
of the IRS, as each of you have testified. But when you're 
appointed to clean up the agency of the IRS as their 
Commissioner, you know there's a problem that you've inherited. 
And there's 24,000 missing emails in that.
    Is it possible that those emails could trace back and 
thread to the highest reaches of government at the most famous 
address in the United States of America perhaps?
    Mr. Chaffetz. I've seen no evidence of that. But I will 
tell you that, if you look at what happened with Lois Lerner, 
she pled the Fifth. That's her constitutional right, and I 
respect that. But you can also see correspondence where it was 
``perfect'' that they couldn't search her text messages. And, 
you know, within days of the Dave Camp letter going to the IRS, 
her hard drive crashed. I mean, what a coincidence.
    But I have seen no direct evidence that I can point to, nor 
is it central to the impeachment resolution, which goes 
directly to what Mr. Koskinen did and did not do under a 
subpoena and his testimony before Congress.
    Mr. King. And, in brief conclusion, what's the statute of 
limitations on these charges that have been chronicled here?
    Mr. Chaffetz. I have no idea.
    Mr. King. Thank you, witnesses.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Georgia, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    I found the video to be very artistic and----
    Mr. Chaffetz. Well, thank you. I take that as a huge 
compliment. Thank you.
    Mr. Johnson [continuing]. Almost----
    Mr. Chaffetz. Our staff will be most pleased to hear that.
    Mr. Johnson.--I would say it was professionally produced. 
What staffer was it that was responsible for the production of 
this video?
    Mr. Chaffetz. I'll get you the names. But we have a number 
of people on our staff, and you can come with me and I'll show 
you and I'll introduce them to you myself.
    Mr. Johnson. Who was primarily responsible for the 
production of that video?
    Mr. Chaffetz. Well, Rebecca Edgar is the head of the 
communications group. We have M.J. Henshaw, who's very 
involved. We have Alex, we have Ashton, we've got a number of 
people. And right after this hearing, if you want, I'll walk 
back and introduce them to you.
    Mr. Johnson. Okay. And those names that you just mentioned, 
all of those people are on congressional staff. Is that 
correct?
    Mr. Chaffetz. If the question is did we produce it 
internally, yes.
    Mr. Johnson. No, my question is, all of the people who you 
just named are on congressional staff?
    Mr. Chaffetz. Yes.
    Mr. Johnson. And they were the ones responsible for----
    Mr. Chaffetz. Yes. I believe there's one person who worked 
on it who no longer works for Congress, but when he worked on 
it, he did work for Congress.
    Mr. Johnson. Did anybody work on that video who was not a 
member of congressional staff?
    Mr. Chaffetz. I don't believe so. I don't believe so. The 
voiceover was Alex, and I'll introduce you to her if you'd 
like.
    Mr. Johnson. Okay. And was that video produced by those 
congressional employees while they were on congressional time 
or----
    Mr. Chaffetz. Yes. Oh, absolutely.
    Mr. Johnson. Okay. Was any of it produced outside of 
congressional time?
    Mr. Chaffetz. I don't believe so.
    Mr. Johnson. And what equipment was used to produce that 
video?
    Mr. Chaffetz. We have a lot of Apple products, and I can 
show them to you. I can't name them off the top of my head.
    Mr. Johnson. Were they all congressionally owned----
    Mr. Chaffetz. Yes.
    Mr. Johnson [continuing]. Equipment?
    Mr. Chaffetz. Yeah.
    Mr. Johnson. And how has that video been used outside of 
Congress?
    Mr. Chaffetz. We have made it public a few months ago. It's 
available on our Web site. We've tweeted it out, Facebook, 
Instagram. It's out there pretty far and wide. We have about 
just over 9,000 hits on it.
    Mr. Johnson. And all of that is on congressional social 
media. Is that correct?
    Mr. Chaffetz. I believe so. I mean, I'd like to get it out 
there more. I'm glad you're talking about it. Go to 
oversight.house.gov and go see it yourself.
    Mr. Johnson. Has the video, under the direction of 
congressional employees, ever been used for a noncongressional 
purpose, to your knowledge?
    Mr. Chaffetz. I couldn't testify about that. I have no--I 
mean, once it's out there in the public and on the Web site, 
there are untold number of people that can cite that link and--
--
    Mr. Johnson. Was any of the footage that was edited and 
used in this production derived from congressional sources? Or 
was it solely noncongressional sources that the----
    Mr. Chaffetz. Well, there are clips, for instance, at the 
beginning----
    Mr. Johnson. Yeah.
    Mr. Chaffetz [continuing]. Of news media.
    Mr. Johnson. Uh-huh. Those were obviously not congressional 
video.
    Mr. Chaffetz. Correct.
    Mr. Johnson. But were there any video that was used--or 
were there any clips of congressional video that was used in 
the production of this video that we saw today?
    Mr. Chaffetz. I'd have to go look. I mean, there are an 
awful lot of clips in there. But I would have to go look.
    Mr. Johnson. Okay.
    Now, let me ask you this question. The Senate Finance 
Committee investigated this IRS issue, correct?
    Mr. Chaffetz. Yeah.
    Mr. Johnson. And the Treasury Inspector General, Treasury 
Department Inspector General, also investigated. Isn't that 
correct?
    Mr. Chaffetz. Let me amend the previous answer and tell you 
that what we looked at was what Mr. Koskinen did and did not--
--
    Mr. Johnson. Okay. No----
    Mr. Chaffetz. If you want clarity, I'll give it to you.
    Mr. Johnson. Well, I just want you to answer my question. 
Isn't it a fact that DOJ, Department of Justice, investigated 
this IRS issue?
    Mr. Chaffetz. What I'm trying to say is----
    Mr. Johnson. Yes or no?
    Mr. Chaffetz. There's two parts to this. They----
    Mr. Johnson. Okay. All right. Well, you don't want to 
answer my question about----
    Mr. Chaffetz. No, I do. I want to give you a complete 
answer, and the complete answer----
    Mr. Johnson [continuing]. The Senate Finance Committee, the 
DOJ, and the Treasury Inspector General. All three of those 
entities investigated this so-called scandal involving the IRS, 
and each one came to----
    Mr. Chaffetz. No. That's not true.
    Mr. Johnson [continuing]. Each one came----
    Mr. Chaffetz. That's not true.
    Mr. Johnson [continuing]. To the conclusion that there was 
no criminal----
    Mr. Chaffetz. Disagree.
    Mr. Johnson [continuing]. Intent on anyone's part----
    Mr. Buck. Mr. Chairman?
    Mr. Johnson [continuing]. To violate the law. Isn't that--
--
    Mr. Buck. Mr. Chairman? Can we have regular order, please? 
The gentleman is over his time.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Johnson. Well, I'd ask the Chairman for an additional 1 
minute to finish eliciting responses to the questions that I 
asked.
    Mr. Buck. And I would object, Mr. Chairman.
    Mr. Gowdy. Will you let him answer?
    Mr. Johnson. I'd love for him to answer the question that I 
asked as opposed to filibustering.
    Mr. Gowdy. Well, then let him talk.
    Mr. Goodlatte. Regular order. The gentleman is recognized 
for an additional minute, with the understanding the gentleman 
will yield to the witnesses so they can answer your question.
    Mr. Johnson. Well, I'll restate my question then. And thank 
you, Mr. Chairman.
    Isn't it a fact that the Senate Finance Committee, the 
Department of Justice, and the Treasury Inspector General all 
investigated this alleged IRS scandal that is the subject of 
this hearing today and each one of those entities found that 
there is no evidence whatsoever that anyone acted with criminal 
intent? Isn't that a fact?
    Mr. Chaffetz. No. What the Senate Finance Committee said, 
there was ``bipartisan agreement that the IRS showed a lack of 
candor.'' That was the----
    Mr. Johnson. You're not answering my question.
    Mr. Chaffetz. Give me time to answer that question.
    Mr. Johnson. That requires a ``yes'' or ``no.''
    Mr. Chaffetz. It requires a complete answer because you're 
conflating two issues. One issue was the investigation into 
Lois Lerner and her actions on her emails. This impeachment 
resolution that we have put forward deals with Mr. Koskinen and 
his actions, his ability to tell the truth, and how he misled 
Congress. That is not something the FBI looked at. In fact----
    Mr. Johnson. Sir, you're not answering my question.
    Mr. Chaffetz. Yes, I am. And, in fact, it would be duly 
noted that the FBI never interviewed Mr. Koskinen--never 
interviewed him.
    Mr. Johnson. I didn't mention the FBI. I said the DOJ.
    Mr. Chaffetz. You said the Department of Justice, I 
believe.
    Mr. Johnson. I said the DOJ.
    Mr. Chaffetz. Well, they're part of the Department of 
Justice.
    Mr. Johnson. You're not answering my question.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Gohmert, 
for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chair.
    I appreciate the witnesses being here today because this is 
important since the Internal Revenue Service is the only entity 
of which I'm aware in the Federal Government that can ignore 
the Constitution as part of its job. Nobody else gets to ignore 
the Constitution. But they can take people's money without due 
process, they can take their property, they can move in and 
destroy a business that took a lifetime to build. And they have 
done that.
    So it is particularly important that the agents that work 
for such an agency that can ignore the Constitution must, 
itself, be completely overwhelmed with integrity. And what 
we've seen is not the case. I know and have known IRS agents 
who are as fine and honest a people as walk the Earth. I've 
heard from IRS agents who have been furious privately to see 
the kind of corruption and dishonesty that has overwhelmed the 
top of the Internal Revenue Service, because, as one told me, 
when she just filed an amended tax return because she had 
forgotten $600, even though she still had a refund coming back, 
she was called in and was going to be fired because IRS agents 
have to be so above-board that their integrity can never be 
questioned--until you get to the supervisors and above. And 
that's where the rot is occurring, and the stink is getting 
overwhelming.
    One of the judges in Tyler, Texas, a Federal judge, William 
Wayne Justice, he did legislate from the bench, was wrong. But 
that man had such an incredible sense of integrity, had he been 
listening to Commissioner Koskinen, the man would have spent 
time in jail before he finished his testimony. He had no use 
for people that would come in and obfuscate as this man has 
done.
    Now, back under the Bush administration, in this Committee, 
we had an Attorney General come in here, and under questions 
about the National Security Letters, he testified from the very 
table our witnesses are sitting at that there were no known 
abuses of the National Security Letters. They were something 
like the IRS might use, demanding production of documents 
without going through a judge.
    He testified similarly in front of Chuck Schumer's 
Committee. And then it was later found--and I watched a replay 
of the testimony late one night, where he testified, oh, well, 
it turns out that he had an IG report on his desk 3 days before 
he testified before the Senate that indicated there were 
thousands of abuses of the National Security Letters and that 
he didn't know that. And under very tough questioning from 
Senator Schumer, he said, ``Look, it was on my desk for 3 days, 
that's true. But I just never really looked at it, so I didn't 
know. I wasn't lying.''
    I was so outraged at the lack of integrity or the 
incompetence, whichever, of something that important, I called 
the White House chief of staff and said, ``You've got to get 
rid of this guy. He cannot be defended by Republicans again. 
This is outrageous.''
    And my question, not just to the witnesses but to all my 
colleagues across the aisle, is where is the Democrat with the 
righteous indignation for this kind of obfuscation and 
dishonesty that will call the White House and say, as I did of 
an Attorney General, this man has to go. And within a month, 
that Attorney General was gone. I would love to see the 
Democrat that still has that kind of righteous indignation to 
stand up and call it as it is, without regard to party.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from Washington, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair.
    Congressman Boustany told a reporter that the House's time 
would be better spent continuing to investigate the IRS' 
treatment of organizations seeking tax-exempt status, as 
opposed to whatever you'd like to call this grandstanding on 
impeachment, because, let's remember, this is not even an 
impeachment hearing.
    And I agree with our colleague from Louisiana. You can 
think whatever you like about Commissioner Koskinen, but what 
we're doing today does absolutely nothing to bring truth to 
light, except maybe show that the record our witnesses have 
presented is thin at best.
    I think Senator Hatch summed it up well. He said, ``We can 
have our disagreements with him, but that doesn't mean there's 
an impeachable offense.''
    The real elephant in the room today is that the IRS 
actually does have significant issues, substantiated ones, that 
Congress should be talking about. I regularly hear from 
constituents who are worried about identity theft after their 
data at the IRS was compromised; others who find it infuriating 
that they have to pay money to an expert just to file their 
taxes because the Tax Code is so complicated; and, even worse, 
constituents who can't even get through to the IRS by phone for 
assistance during filing season because the agency has become 
so underfunded it can barely serve American taxpayers.
    If we really want to improve government accountability and 
efficiency for the benefit of the American people, let's start 
talking about getting our constituents a good return on their 
investment. Let's commit in earnest to solving some of these 
issues. And let's stop wasting time on circuses like this.
    When the vast majority of the House and the Senate, 
Republicans and Democrats alike, can agree that the evidence to 
support impeaching Commissioner Koskinen is not there, I think 
it's time to move on from these games and do some real work.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. I thank the Chairman and thank Chairman 
Goodlatte for having this important hearing today.
    John Koskinen had several duties. He breached every single 
one. He had a duty to preserve documents under subpoena. He had 
a duty to produce those documents that were under subpoena. He 
had a duty to disclose to Congress if he couldn't preserve and 
produce those documents that were under subpoena. He had a duty 
to do that in a timely fashion. He had a duty to testify 
accurately. He had a duty to correct the record if, in fact, he 
testified in an inaccurate fashion. He breached every single 
duty he had, and that's what Congressman Chaffetz and 
Congressman DeSantis have outlined for us all here this 
morning.
    No wonder the guy didn't show up. If I had that kind of 
record, I don't think I'd have shown up today either.
    I mean, never forget what happened here. The Internal 
Revenue Service, and the power that it has over American 
citizens' lives, systematically targeted fellow citizens for 
their political beliefs. They did it for a sustained period of 
time. And they got caught. And when they got caught, they did 
what a lot of people do when they get caught. They lied about 
it, right?
    Remember, May 10, 3 years ago this month, May 10, Lois 
Lerner, bar association speech here in town, trying to get 
ahead of the story before TIGTA was actually going to release 
the first report, not the one we're talking about today, but 
the first report, trying to get ahead of the story. The central 
figure at a bar association meeting has a friend ask a planted 
question, and Lois Lerner says what? Wasn't me, wasn't 
Washington, it was those folks in Cincinnati. Complete lie.
    Twelve days later, May 22, she takes the Fifth--
interestingly enough, the same day that the IRS tells 
themselves, ``Preserve all documents.'' The same thing same day 
Lois Lerner is taking the Fifth, the IRS says, ``Preserve all 
documents,'' May 22 of 2013.
    Now, when the central figure lies and then takes the Fifth, 
it sort of puts a premium on getting the documents and the 
information and all her communications, right?
    And so then comes in Mr. Koskinen. And when he is hired, 
when he is confirmed, here's what the President said: We need 
``new leadership that can help restore confidence going 
forward.'' That's what he was brought in to do. And I would 
argue, based on breaching all six duties he had, he has done 
anything but restore confidence.
    So, under his watch, as we learned from the good testimony 
today from Mr. Chaffetz and Mr. DeSantis, what happens? He 
allows 422 backup tapes to be destroyed. When he learns about 
it, he waits 4 months before he tells us, the Congress doing an 
investigation. He doesn't even--and he doesn't even check on 
any other backup tapes that exist, because we found out there 
were 700 others that weren't destroyed that could have helped 
us. He didn't even check when he told us that some of these had 
been destroyed.
    Which leads us to the one question I have.
    And I want to thank the Chairman again for this hearing and 
the second hearing that's coming.
    But, Mr. DeSantis, is the standard, in your judgment, is 
the standard for impeachment a criminal intent standard?
    Mr. DeSantis. No. I think that's pretty clear. If you look 
at Alexander Hamilton in The Federalist, he said that 
impeachment was about the violation of public trust and that 
those offenses are inherently political, as they relate more to 
injuries done to the society and the way that government works.
    And then Joseph Story in his commentaries on the 
Constitution several decades later said that these need to be 
thought of as political offenses growing out of misconduct or 
gross negligence or usurpation or other disregard for the 
public interest. And he said that they must be examined upon 
very broad and comprehensive principles of public policy and 
duty.
    Mr. Jordan. Gross negligence, dereliction of duty, breach 
of public trust, right?
    Mr. DeSantis. Sure.
    Mr. Jordan. Mr. Chaffetz, do you think Mr. Koskinen 
exhibits some gross negligence in his conduct over the last 
several months in trying to help us get to the bottom of this 
scandal?
    Mr. Chaffetz. Absolutely.
    Mr. Jordan. Do you think there was a dereliction of duty?
    Mr. Chaffetz. Yes.
    Mr. Jordan. It seems to me a dereliction of duty when you 
wait 4 months to tell Congress, right? His chief counsel knew 
in February of 2014 that there were problems and a gap in 
Lerner's emails, and he doesn't tell us until June? His chief 
lawyer knew, and he waits 4 months? And the reason he told us 
he waited 4 months was because he was doing his due diligence 
to make sure that actually happened. And part of that due 
diligence wasn't even checking to see if there were backup 
tapes available. I think that's a dereliction of duty.
    And, obviously, when you look at this--and here's the other 
thing. Breach of public trust. Oh, my goodness. We just heard 
the Democrats talk about problems with the IRS. They said the 
cybersecurity breach. We had GAO tell us the tax gap at IRS is 
$385 billion. Their fundamental duty is to collect revenue due 
the Federal Treasury. They can't even fulfill that. But they've 
got time to target people and make sure they destroy backup 
tapes in the course of an investigation? I mean, for goodness' 
sake, this is certainly breach of public trust, dereliction of 
duty, and negligence in gross, gross form.
    Mr. Chairman, again, I want to thank you for this first 
hearing. I look forward to the second one, where we're going to 
have some experts, I believe, come in and talk about the 
standard that has to be met to get rid of someone who's 
conducted himself the way Mr. Koskinen has. But I thank you for 
this and look forward to the next hearing.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from New York, Mr. Jeffries, for 5 
minutes.
    Mr. Jeffries. Thank you, Mr. Chairman.
    I've had the opportunity to serve in the Congress now for 
about 3\1/2\ years. And, to me, I think the greatest evidence 
of gross negligence, dereliction of duty, breach of public 
trust was when Members of this body in October of 2013 decided 
for purely political reasons that you were going to shut down 
the government for 16 days and cost the economy $24 billion in 
lost economic activity. And yet we have to sit here at this 
hearing and be lectured about alleged gross negligence and 
breach of trust.
    People need to look at their own conduct, their own 
behavior, and how that's impacted the American people and their 
bottom line rather than subject us to this taxpayer-funded 
fishing expedition. Because there's an addiction that some 
have--not the distinguished Chairman who's sitting before us 
right now--but there's an addiction that some have in this body 
to impeachment.
    Now let me ask Mr. DeSantis a question.
    Do you think that President Barack Obama has committed an 
impeachable offense during his 7-plus years in office?
    Mr. DeSantis. I've never argued that, and it's really 
irrelevant. I think the IRS is within the context of the IRS, 
and that's what we're focusing on.
    Mr. Jeffries. Okay.
    Now, the Chairman of the Senate Finance Committee is Orrin 
Hatch. Is that correct?
    Mr. Chaffetz. Yes.
    Mr. Jeffries. And he's got jurisdiction over the IRS, as 
Chairman of the Finance Committee. Is that right?
    Mr. Chaffetz. Yes.
    Mr. Jeffries. And he's a well-respected Member of Congress, 
correct?
    Mr. Chaffetz. Yes.
    Mr. Jeffries. A man of integrity?
    Mr. Chaffetz. Yes.
    Mr. Jeffries. And he stated, ``We can have our 
disagreements with him,'' meaning the IRS Commissioner, ``but 
that doesn't make it an impeachable offense.'' Is that correct?
    Mr. Chaffetz. I think what Senator Hatch and the Senate 
Finance Committee may be looking at may be different than what 
we're looking at. Many of these statements that I believe were 
false and misleading happened in the House of Representatives.
    And I would also note that the Senate Finance Committee 
came to a conclusion that ``bipartisan agreement that IRS 
showed a lack of candor.''
    Mr. Jeffries. Now, the essence of this controversy, as I 
understand it, relates to the possible destruction of 
documents. Do you believe that that destruction was 
intentional, or was it incompetence?
    Mr. Chaffetz. The IRS would argue that it's accidental, and 
let's take their word for it for a moment. That's not 
acceptable. When there's a duly issued subpoena, they have a 
legal obligation to protect and preserve. And they did not do 
that.
    Mr. Jeffries. Now, in terms of what the IRS may have said, 
let's put that to the side for a second. J. Russell George is 
the Treasury Department Inspector General. Is that correct?
    Mr. Chaffetz. Yes.
    Mr. Jeffries. A man of integrity?
    Mr. Chaffetz. Yes, I believe so.
    Mr. Jeffries. Well-respected inspector general?
    Mr. Chaffetz. Yeah.
    Mr. Jeffries. Bush appointee. Is that right?
    Mr. Chaffetz. I think originally. He also had worked 
previously for the Oversight and Government Reform Committee at 
one point.
    Mr. Jeffries. Okay. Republican appointee. Now, did the 
report that he issued uncover any evidence of intentional 
destruction of evidence by the IRS.
    Mr. Chaffetz. I was very careful in my comments to separate 
out what had happened with Lois Lerner and the emails, and the 
actions by Mr. Koskinen himself. The inspector general did not 
look and investigate what Mr. Koskinen--the totality of what's 
in a resolution.
    Mr. Jeffries. Now the Inspector General's report concluded: 
``The investigation did not uncover evidence that the IRS and 
its employees purposely erased the tapes in order to conceal 
responsive emails from the Congress, the DOJ or the Inspector 
General.'' Is that correct, that finding in the report page 3, 
paragraph 2?
    Mr. Chaffetz. I believe you stated that accurate.
    Mr. Jeffries. Okay. So what I'm trying to understand is 
we're here considering an impeachment proceeding. Perhaps the 
most severe remedy available to Congress as it relates to a 
separate but coequal branch of government where a Republican 
appointed inspector general concluded that the underlying act 
that we should all be concerned about was accidental, not 
intentional. But we then have a theory that even though the 
Republican appointed inspector general concluded that the 
underlying act, if anything, was based on incompetence, it 
wasn't intentional, that the IRS commissioner subsequently came 
before Congress to conceal something that itself, while 
incompetent, wasn't criminal, according to the Republican 
appointed inspector general.
    I just think that this is respectfully a remedy in search 
of a problem and that we have better things that we could be 
doing with our taxpayer dollars to put the American people in a 
better place in terms of their quality of life.
    And I yield back.
    Mr. Chaffetz. Chairman, may I respond to that?
    Mr. Goodlatte. The time of the gentleman has expired, but 
the witnesses will be allowed to respond briefly.
    Mr. Chaffetz. The first question you have to ask is did 
they destroy documents that were under subpoena. I think the 
answer is clearly yes. Whether you believe that was an accident 
or intentional, that really will be for the next hearing that 
we have next month about what is the standard for impeachment. 
I don't believe you have to prove intent in order to get there.
    And to the 60,000 people, constituents of yours, and mine, 
and others that will get a subpoena and that will get a summons 
from the IRS, is it good enough for them to just come back and 
say, you know, I had those documents and by golly, it was an 
accident, I destroyed them all. Do you think that's going to 
fly? Heck no, no way. And so that's a fairly weak argument.
    The question is did they destroy documents that were under 
subpoena? The answer is yes. Did they provide false and 
misleading testimony to Congress? Yes and on more than one 
occasion. If that testimony was not accurate and they wanted to 
correct it, they had a duty and obligation to do it and they 
never did do it and I could go on.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Pennsylvania, Mr. Marino for 5 
minutes.
    Mr. Marino. Thank you, Chairman. Let me read to you a 
summary that was put together concerning a method by which we 
could address these matters not only to gather information but 
from a criminal standpoint. Under the Constitution and its 
separation of powers, principle and structure, Congress has no 
direct role in Federal law enforcement nor in triggering, or 
initiating the appointment of any prosecutor for a particular 
matter.
    Congress has a legislative role in designing a statutory 
mechanism for the appointment of independent counsels or 
special prosecutors as it did in Title VI of the Ethics in 
Government Act of 1978.
    Under the provisions of that law relating to the 
appointment of independent counsel, called special prosecutors, 
until 1983, the Attorney General was directed to petition a 
special three judge panel of the U.S. Court of Appeals to name 
an independent counsel upon the receipt of credible 
allegations, which we have here, of criminal misconduct by 
certain high level personnel in the executive branch of the 
Federal Government, whose prosecution by the Administration 
might give rise to an appearance of a conflict of interest.
    In 1999 Congress, in its infinite wisdom, allowed the 
independent counsel provision law to expire. Upon the 
expiration of the law in June 1999 no new independent counsel 
or special prosecutors may be appointed by a three judge panel 
upon the application of the Attorney General. The Attorney 
General retains the general authority to designate or name 
individuals as special counsel to conduct investigations or 
prosecutions of particular matters or individuals on behalf of 
the United States.
    As a result, and as a result of what has taken place with 
the IRS, and how untruthful they've been, I'm personally moving 
forward to drop legislation that reenacts Title VI of the 
Ethics in Government Act of 1978 where independent counsel can 
be appointed to investigate these matters so justice can be 
served.
    And I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Rhode Island for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Before I begin I want to stress that I have a great deal of 
respect for the two Members before the Committee today. I have 
been fortunate to have worked with both of them on legislation 
and recognize the sincerity of their views. However, I must 
respectfully disagree with the conclusions they have drawn 
today before this Committee.
    My friend and colleague Chairman Chaffetz has called for 
the impeachment of IRS Commissioner John Koskinen and he argues 
that the commissioner has obstructed justice, perjured himself 
before a congressional Committee, and has failed to provide 
oversight of the investigation of the IRS.
    The Treasury, inspector general for tax administration, the 
Senate Finance Committee, and the Department of Justice however 
have each conducted their own investigation into the so-called 
IRS targeting scandal. And while these investigations uncovered 
various management problems at the IRS, there was no evidence 
to support allegations of criminal activity or politically 
motivated behavior.
    There was no evidence to support allegations that 
Commissioner Koskinen deliberately misled Congress or attempted 
to obstruct a congressional Committee. In fact, each of these 
investigations found no evidence whatsoever that the 
commissioner has acted in bad faith. Under his direction the 
IRS spent $20 million and has devoted more than 160,000 hours 
to collect, review and produce 1.3 million pages of documents 
to investigating Committees. This includes over 78,000 emails 
sent or received by Lois Lerner, including over 24,000 emails 
that were affected by Ms. Lerner's hard drive crash. It is hard 
to challenge this as an attempt to stonewall--I'm sorry, it is 
hard to characterize this as an attempt to stonewall, hinder or 
otherwise obstruct a congressional investigation.
    The overall record built on multiple investigations fails 
to support the allegations leveled in this hearing. I regret 
that we are not addressing many of the issues at the IRS that 
were raised by the gentlelady from Washington that would have a 
real impact on the services provided to our constituents.
    I also regret that we are not using the time today to hold 
a hearing on criminal justice reform, gun violence prevention, 
legislation to protect the intellectual property rights of 
artists and musicians or comprehensive immigration reform.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman. And 
recognizes the gentleman from South Carolina Mr. Gowdy for 5 
minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. I was thinking to 
myself as Chairman Jordan was talking about kind of the 
history, the chronology of this investigation as these two 
witnesses well know, there were what about a half dozen 
defenses offered by the IRS throughout the course of this 
investigation, each of which collapsed under its own illogic.
    It began with the two people in Ohio that were blamed, and 
then it went to my personal favorite defense which is that is 
that the IRS was too incompetent to be able to construct a 
scheme as sophisticated as this scheme was. And then they moved 
from that defense to the yeah, but we also targeted 
progressives too so at least we were equal in our 
discrimination. And then my favorite, the one they settled on 
toward the end was yeah, but the President himself did not 
personally approve this targeting scheme. Therefore, you don't 
need to look at it anymore.
    I know the next hearing is about the process--Koskinen had 
mentioned due process in his opening statement that he didn't 
give to us. And the next hearing is about what processes do--
the procedural part of due process. Where this one more of a 
substantive part of the due process analysis. And I'm 
interested as other Members are. What elements need be proven, 
what's the standard of proof? Is it clear convincing evidence? 
Is it preponderance? Is it beyond a reasonable doubt? Does 
anyone know? Do the rules of evidence apply? Can you use 
hearsay? So I'm interested in that, but Chairman Chaffetz, you 
said something, that I wrote down, which doesn't happen very 
often, but it did happen today, which is that impeachment is a 
penalty, a punishment, and you're exactly right it is, it is a 
punishment.
    What Congress really wants is access to the documents and 
the witnesses, because that is the lifeblood of any 
investigation, you cannot conduct an investigation if you don't 
have access to the documents and the witnesses. We know that. 
Unfortunately those who seek to not be investigated also know 
that.
    So until this body begins to incrementally assert itself 
with impeachment--acknowledge being the ultimate penalty--by 
the way, I want to make sure since I have two experts--well one 
for sure expert in front of me and then the Chairman of 
Oversight, did I hear correctly that incompetence is not an 
impeachable offense? Because I always believe that malfeasance 
in office or the failure to perform the duties of your office 
could be an impeachable offense. Is that your understanding as 
well.
    Mr. Chaffetz. It could be a factor, yes.
    Mr. Gowdy. So how could incompetence be a defense if the 
allegation is incompetence? If that's what we're alleging. I 
mean it doesn't have to be a crime. The notion that you can 
only impeach someone who commits an actual violation of the 
criminal code is nonsense. There are lots of ways to screw up 
in your job that don't rise to the level of meeting the U.S. 
criminal code.
    So the notion, if I heard it correctly, that incompetence 
is a defense to an allegation of being incompetent, it's hard 
for me to get my head around that.
    All right let me ask you this, either Chairman DeSantis or 
Chaffetz, Mr. Koskinen said every email has been preserved. Is 
that true or false?
    Mr. Chaffetz. False.
    Mr. Gowdy. So if it is false then the next line of inquiry 
was whether it would be intentionally false, negligently false, 
whether or not he had a duty to investigate but did not perform 
that duty, I guess that's what we want to investigate, right? 
Not the falsity of it, but the nature of the falsehood?
    Mr. DeSantis. Yeah. And I mean you're a prosecutor and 
these aren't criminal offenses but you remember 18 U.S.C. 1001 
a reckless disregard for whether a statement is true, or a 
conscious effort to avoid learning the truth of a statement, 
can be construed as actually making a knowingly false 
statement. And so we're in a situation here where at best he 
just simply refused to avail himself of the proper facts, and 
came to Congress, and testified under oath, and made a 
statement that is just factually incorrect.
    Mr. Gowdy. I also have a note, backup tapes from 2011 no 
longer exist. Was that true or false?
    Mr. Chaffetz. That is true. Now they went back and they 
were able to find some, but they were, as they call it 
degaussed.
    Mr. Gowdy. So it would be false to say they no longer 
exist. Clearly they exist because somebody went and found them.
    Mr. Chaffetz. It's how you define degaussing, but some went 
through this degaussing process.
    Mr. Gowdy. Oh, you're talking about degauss. You're losing.
    Mr. Chaffetz. Exactly but that was their defense. That was 
what they suggested.
    Mr. DeSantis. They destroyed a lot of tapes obviously but 
then there were other tapes that the inspector general--after 
the commissioner made the statement they just hopped in their 
car, went to West Virginia, asked for tapes, and they found a 
bunch of tapes. I think there were 1,000 unique emails that 
they were able to find off those tapes. So when the 
commissioner said that there were no backup tapes at the time 
he said that that was false.
    Mr. Gowdy. Well, I know I'm out of time, Mr. Chairman, but 
I'm looking forward to the next panel, because I am interested 
in hearing how incompetence can be a defense to an allegation 
of incompetence. And I think it would be the law professors 
that will have to explain that one to us.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman. And 
recognizes the gentleman from Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here.
    One of these incidences with the IRS includes a group of 
folks in Texas, Catherine Englebreck you all know her, and just 
put it back in the record, in July of 2010 they filed for an 
IRS non profit status for True the Vote for King Street 
Patriots in Texas. In December of 2010, the FBI domestic 
terrorism unit inquired about one of the meetings. They came 
back in January of 2011, the FBI. All of a sudden having never 
been audited by the IRS, ever, Catherine Englebreck and their 
personal finances were audited by the IRS from 2008, 2009, 
through the vote in March of 2011, IRS questions about the 
introduced questions on non profit application.
    Once again, in May 2011 the FBI shows up after one of their 
meetings. October of 2011 once again the IRS sends more 
questions second round. And some of these questions were 
including where have you spoken? Who did you speak to? What are 
the list of the people who were there? What did you say? And 
give us a copy of this speech and all your future speeches. IRS 
inquiry.
    And then in June of 2011 once again FBI inquiry. November, 
December, FBI inquiry. Once again the Truth Vote had more 
questions, third round from the IRS, the King Street Patriots 
had more questions from the IRS about their application. And 
then all of a sudden, February of 2012, the Bureau of Alcohol, 
Tobacco, and Firearms shows up to investigate this 
organization.
    And then July of 2012, OSHA shows up to investigate their 
nonprofit request. And then the Texas commission on 
environmental quality showed up in November 2012. And once 
again fourth round of questions from the IRS, March of 2013, 
more questions from the IRS. And then once again in April 2013 
the Bureau of Alcohol, Tobacco, and Firearms shows up again. So 
you have got the FBI, you have got OSHA and you have got even 
the Harris County terrorism task force showed up to investigate 
these folks. All they are looking for is whether or not they 
can get an exemption from the IRS.
    Now, to me this appears to be an abuse of the IRS working 
with other government agencies about this one issue of whether 
they should get tax exempt status, it is political persecution 
by the IRS.
    And as you mentioned, Mr. Chaffetz, in your opening 
statement. The IRS knows how to get things done by their 
subpoena.
    They have ways of getting you out there to the fruited 
plain, to get this information. They show up all these 
different times trying to get information. To your knowledge, 
either one of you, has the IRS, any agent, any person, been 
held accountable for the abuse of power that they used against 
this one citizen back in Texas?
    Mr. Chaffetz. No, I'm not aware of any.
    Mr. Poe. Mr. DeSantis?
    Mr. DeSantis. No.
    Mr. Poe. All of the accusations against the IRS and there 
have been numerous, you all have done all the investigation of 
all these organizations who have been trying to get tax exempt 
status. The abuses that have occurred or the alleged abuses 
that have occurred, has anyone in the IRS been fired?
    Mr. Chaffetz. No. Mr. Koskinen stands by all of his 
statements, even to this day. They claim it was an accident, 
but nobody was dismissed, reprimanded, moved. I'm not aware of 
anybody having any consequence. And the GAO came back and 
studied it later and found that the situation is dire, it's bad 
and it's still available for targeting.
    Mr. DeSantis. Even Lois Lerner retired with full pension, 
even though she had been held in contempt of Congress.
    Mr. Poe. Nobody's gone to jail? Nobody's gone to jail?
    Mr. DeSantis. No.
    Mr. Poe. And you had a Federal judge what 3 months ago, 
make the comment that D.C. Circuit Court judge here in 
Washington make the comment that the IRS cannot be trusted. Are 
you all familiar with that statement by a Federal judge after 
hearing one of these lawsuits?
    Mr. DeSantis. Yes.
    Mr. Poe. I'm out of time, Mr. Chairman.
    I yield back.
    Mr. Ratcliffe [presiding]. The Chair thanks the gentleman.
    Mr. Farenthold. Thank you very much, Mr. Chairman. You 
know, I sometimes ask myself what I'm doing here in Congress. I 
get frustrated and sometimes depressed, sometimes angry, 
because I don't like the way things are going in Washington, 
D.C. We pass hundreds of bills just so see them die in the 
Senate. The good stuff that does pass the Senate probably gets 
vetoed by the President. The President regularly bypasses 
Congress with what I consider to be illegal and 
unconstitutional executive orders. Am I wasting my time being 
here?
    But what pulls me through on this is remembering that we 
are the elected Representatives of the people of United States. 
And the people of United States want us to do something. They 
are mad. They are angry. They don't like the gridlock in 
Washington, D.C. They don't like a big, intrusive government. 
They don't like the high taxes that they are having to pay. And 
you know what I think they like the least? Being lied to by 
their elected Representatives, whether it's the President with 
if you like your health insurance you can keep it or his 
appointees like Mr. Koskinen. We have got to take a stand and 
say, we are not going to be lied to in Congress.
    You know, in Texas there is an anti-litter campaign it 
says, don't mess with Texas. It is kind of an unofficial motto 
of Texas. We need to reclaim some of our constitutional 
authority. And people need to be thinking don't mess with 
Congress. When you're called to testify before a Committee of 
Congress or whether you're subpoenaed to produce documents, you 
should do so promptly and you should do so truthfully.
    I'm seeing an alarming trend. I think the Administration 
and their officials have learned you can obfuscate, you can 
delay, and maybe the new cycle will forget it and it will go 
away. But that's not the way it's supposed to work, that's not 
the way our Founding Fathers intended it. That's not the way 
the people who sent me to Washington, D.C. want to see it 
happen. They want us to do our job. They want us to hold the 
government accountable.
    Chairman Chaffetz you chaired the Oversight and Government 
Reform Committee. Are you seeing this same pattern?
    Mr. Chaffetz. I am and I think you've hit the nail on the 
head, Mr. Farenthold. I know you're passionate about these 
issues. And that's in part why I came to Congress as well. The 
Administration knows it can delay and we can't let them get 
away with it. And it is a principle. It should be true on both 
side of the aisle. This is not a partisan issue, it shouldn't 
be, it shouldn't be.
    Mr. Farenthold. We saw it with Eric Holder, we saw it with 
Fast and Furious, with have seen it with Hillary Clinton's 
emails. It goes on and on. And this is our opportunity to take 
a stand.
    I'm a cosponsor of your impeachment legislation on Mr. 
Koskinen. Do you think that proceeding with this will send the 
message to the Administration and the alphabet soup of 
executive branch agencies, don't mess with Congress?
    Mr. Chaffetz. I do. I believe the Constitution is an 
inspired document and our Founders put this mechanism in place 
specifically on civil officers. We studied this for 3 months 
with House counsel and determined if you're confirmed by the 
Senate with coequal vote to go into that highest echelon of 
government, impeachment is a process by which we can extract 
that person if they are not serving the best interest of the 
United States of America.
    Mr. Farenthold. I'm also with, my colleague, Mr. Gowdy, 
looking forward to hearing from the law professors, because my 
recollection from my constitutional law studies in San Antonio, 
Texas, was the impeachment clause means high crimes and 
misdemeanors, and what can be impeached. Congress decides what 
those are.
    Mr. Chaffetz. Exactly.
    Mr. Farenthold. And I think it is our opportunity to re-
exert our authority and our oversight prerogative. And I think 
it's critical to maintaining the republic that the government 
officials, who are paid by the taxpayers, answer truthfully and 
promptly to the taxpayers Representative.
    Mr. Issa. Would the gentleman yield?
    Mr. Farenthold. Oh, yes.
    Mr. Issa. With the remaining time, there has been a lot 
said by the gentleman on the other side of the aisle about how 
the Department of Justice has found no crime, no wrong doing, 
no targeting. Mr. Chairman, you've continued where I left off 
on the Committee. Do you find that to be inaccurate? In other 
words, is it fair to say that the Department of Justice's 
failure to see what you see so clearly as continued targeting 
is in fact part of a coverup, that continues today? Their not 
seeing what is in plain sight is in fact part of the reason 
you're here.
    Mr. Chaffetz. Potentially one of the things that I'm 
concerned about is the FBI never interviewed Mr. Koskinen. And 
I would question the thoroughness in which they came to this 
conclusions.
    Mr. Issa. I thank the gentleman for yielding.
    Mr. Farenthold. And my time has expired.
    Mr. Ratcliffe. The gentleman yields back. The Chair 
recognizes the gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    This investigation I think has yielded some interesting and 
very concerning results. I want to first start by thanking Mr. 
Issa for all of his hard work on this issue when he chaired the 
Oversight Committee. And I also want to thank Mr. Chaffetz for 
continuing this investigation in getting us to this point.
    As I review the evidence and report the similarities 
between this and Watergate are staggering. I'm going to 
apologize I will be the second person to use Wikipedia today, 
but this is from Wikipedia. The term Watergate has come to 
encompass an array of clandestine and often illegal activities, 
undertaken by members of the Nixon administration. Those 
activities include as such dirty tricks as bugging the offices 
of political opponents and people of whom Nixon or his 
officials were suspicious. Nixon and his close aides order 
harassment of activist groups and political figures using the 
Federal Bureau of Investigation, the CIA and the IRS.
    In July 1973, evidence mounted against the President's 
staff, including testimony provided by former staff members, in 
an investigation conducted by the Senate Watergate committee. 
The investigation revealed that President Nixon had a tape-
recording system in his offices and that he had recorded many 
conversations. After a protracted series of bitter court 
battles, the U.S. Supreme Court unanimously ruled that the 
President was obligated to release the tapes to government 
investigators and he eventually complied. These audio 
recordings implicated the President--and this is the key--
revealing he had attempted to cover up. Not that he 
participated in the crimes, but that he had attempted to cover 
up activities that took place during after the break-in and to 
use Federal investigation officials to deflect the 
investigation.
    As I listen to the testimony, as I listen to all the 
evidence, there is such an eerie similarity to Watergate. We 
had government officials that were persecuting their political 
enemies, who were going after them, using the IRS and other 
agencies. The difference is that unlike Watergate, we have lost 
the tape. We can't prosecute these people because they 
destroyed the evidence. As far as we know, and as the evidence 
shows, and as history shows, Watergate did not include any 
destruction of evidence. They tried to hide the evidence, but 
they didn't destroy it because the Supreme Court was able to 
figure it out and was able to tell the Nixon administration to 
bring this evidence forward.
    But what I want to focus on today are these emails which to 
me are like the Nixon tapes. Much like the 18\1/2\-minute gap 
of the Nixon tapes the shear convenience of a hard drive crash 
of multiple other high-level officials experiences system 
crashes and the subsequent erasing of backup data is highly 
disturbing.
    As many of these emails were subject to congressional 
subpoenas, the potential of a true coverup and of the 
undermining of democracy and of the Democratic process becomes 
even more apparent in what we're talking about today. This 
Committee in my opinion has a critical responsibility and I 
hope that Members from both sides of the aisle will give this 
matter the attention it deserves.
    And it actually saddens me that there is only one Democrat 
right now on the other side. The reason we got to the bottom of 
Watergate is because Republicans and Democrats decided to take 
the investigation seriously.
    Lois Lerner's hard drive crash in June of 2011, as you 
indicated 8 days after the Camp letter asking for the 
information TIGTA'S report that is hailing its investigation 
from June 13, 2014, through June 29, 2015, included a tracking 
of the crash hard drive and the procedures that took place. Do 
you believe that the IRS followed the proper protocols when 
addressing this crashed hard drive in 2011?
    Mr. Chaffetz. No, I don't believe they did.
    Mr. Labrador. The TIGTA report of investigation identified 
six possible sources that would potentially recover the missing 
emails. To your knowledge, following receipt of subpoena for 
the emails, how many of these sources were identified and 
examined by the IRS in an effort to comply with the subpoena?
    Mr. Chaffetz. The inspector general indicated that five of 
six were not sought nor were they investigated.
    Mr. Labrador. Is there evidence in your opinion to suggest 
that the destruction of these tapes was part of a concerted 
effort to not comply with the congressional subpoena?
    Mr. Chaffetz. I want to be very careful not to overstep. We 
see nothing that implies direct intent. And I want to be very 
careful with that, but the IRS will call it an accident. But 
again, as I've said many times before, they had a legal duty to 
preserve, protect, to find, seek and present those to the 
United States Congress and to that they did not do it.
    Mr. Labrador. They call it an accident, I call it a series 
of unfortunate coincidences. I think it is outrageous for 
anybody to think that this was a coincidence. And just to 
borrow form Watergate, I would like a better understanding and 
I hope that we can get to the bottom of this of what Mr. 
Koskinen knew and when he knew it. And I think that's what this 
Committee has the duty to find out.
    Mr. Chaffetz. I do hope that people on both side of the 
aisle will just look strictly at the fact, did they or did they 
not destroy the evidence? They did. Did they or did not know 
not provide false testimony and mislead Congress? Yes, they 
did. When they knew it was wrong, did they come back to 
Congress and correct it? No, they did not.
    There is is a series and a pattern here not merely and 
accident. It goes beyond that. Whether it is a Democrat or a 
Republican or whether it is a Democratic administration or a 
Republican administration, it shouldn't matter. You cannot 
destroy evidence that is under a duly issued subpoena. And 
there should be a consequence to that. And then you can't come 
to Congress and lie about it, which is clearly what happened 
here.
    Mr. Labrador. Thank you.
    I yield back my time.
    Mr. Ratcliffe. The gentleman yields back. The Chair 
recognizes the gentleman from Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. Mr. Chairman, 
there has been so much very powerful and insightful testimony 
here today. And my purpose here is to try, given the fact that 
we are coming down toward the end of this hearing, to try to 
bring us back to what this is all about.
    You know, not to become too foundational, but we do still 
hold these truths to be self evident, that all men are created 
equal, that they are endowed by their creator with certain 
unalienable rights. And among these are life, liberty and the 
pursuit of happiness. And to secure these rights--these are the 
key issue--that to secure these rights, governments are 
instituting among men deriving just powers from the consent of 
the government. And for my purposes I think that this last 
sentence of that that I just said is the most--deriving their 
just powers from the consent of the government.
    Whenever we have a government that uses the power of the 
IRS or any of its police powers to deliberately coerce some of 
its citizens for their political views or for their religious 
views, that is by very definition tyranny, and it speaks 
against everything that is at the core of who this country 
really is.
    So while we sometimes talk around the edges here, this is a 
very big issue. Did the government, did the Obama 
administration use their powers, their police powers, their 
powers at IRS, powers to intimidate people because they 
disagreed with them politically? If they did, that is profound 
and it is especially important for this Committee who holds 
itself to be the guardian of the Constitution to respond to 
that.
    Now it is very clear to me that coercion did occur. It is 
very clear to me that damage and impact did occur on some of 
these conservative organizations. It is very clear to me that 
evidence was destroyed. It is very clear to me that there seems 
to have been astonishing coincidences at least in that process. 
And it is very clear to me that as Mr. Chaffetz has said the 
IRS never made any attempt to come back and correct those 
things if indeed this was all accidental.
    What is not clear to me is why in the face of this we've 
seen such arrogance on the part of Mr. Koskinen and such a 
flippant attitude that seems to be sort of characterizing this 
Administration constantly that whatever these great abiding 
principles of this country really are, they are put aside, just 
flippantly for the sake of the political moment.
    And so I just want to suggest to you that I think this is 
an important thing. And so I'll ask this question to the 
witnesses to both of them. I'll start with Mr. DeSantis, do you 
think that in this case that the IRS--that the affect of their 
action was to intimidate people based on their political 
persuasion?
    Mr. DeSantis. Well, in my opening statement I told the 
story about campaigning for office for the first time in 2012 
and asking to speak in front of a group that was in the process 
of applying for tax exempt status, and they really freaked out 
about me being there because I was a political candidate and 
they were worried about the IRS. And at the time I thought they 
were just way paranoid. And I was, like, give me a break. Why 
would the IRS care about it? And then when the scandal broke in 
May of 2013, I immediately thought back to that and I 
absolutely saw an example of them chilling their conduct 
because they were concerned about the IRS.
    Mr. Franks. Yeah. Mr. Chaffetz, do you think there was 
deliberate attempt on the part of some persons to target----
    Mr. Chaffetz. Yeah, it does appear then that in the case of 
Lois Lerner that there was a concerted effort to target. That 
was the conclusion of the inspector general. That was why we 
got--this scandal has continued to grow. I separate that from 
the resolution that we had before us, but the underlying 
premise that they targeted conservatives to press their First 
Amendment rights? Absolutely. I think that issue has been 
clearly documented.
    Mr. Franks. Well, my microphone--to end here, the purpose 
of my questions were simply to point out that, yes, 
intimidation did occur.
    Mr. Chaffetz. Yeah.
    Mr. Franks. And government power was used to do that. And 
at least some of those individuals knowingly did that. And that 
that is counter to everything we are as a republic, that we're 
a rule of law, not a rule of men. And if we overlook that, just 
carelessly or casually, then I think we fail the test of being 
not only the defenders of our Constitution but of our republic 
and of the people respectively.
    And with that, Mr. Chairman, I hope we consider that 
carefully and I yield back.
    Mr. Ratcliffe. I thank the gentleman. I now recognize 
myself for 5 minutes.
    I'd like to thank all of the Committees that spent 
countless hours investigating this matter. And I would like to 
particularly thank my distinguished colleagues that are here as 
witnesses today. Thank you for being here and for being here in 
the search for the truth.
    If we were to rewind this story all the way to the 
beginning, we know that this began with the IRS singling out 
and targeting conservative groups because of their beliefs. We 
know that the IG has confirmed that. And a problem here is the 
IRS went after and targeted select groups of Americans because 
of their political beliefs. And in this case, it was of 
conservatives. I've listened to my Democratic colleagues across 
the aisle today talk about this hearing being an instance of 
grandstanding and calling it a circus. But I wonder if some of 
those Democratic colleagues might feel differently if it the 
IRS had been targeting other groups like environmentalists or 
LBGT advocacy groups.
    You know, regardless of the type of American, Congress has 
to restore faith and trust in an agency that is doing targeting 
of any type of American. We're here at the wish of the American 
people, Congress is investigating because of that. The 
Committees are trying to right a wrong and to restore America's 
trust.
    And unfortunately, because Lois Lerner, the driving force 
behind these initial outrageous activities, because she refused 
to cooperate with Congress' investigations, Americans are left 
really with one avenue for finding the truth, for learning the 
truth and that's through her email records.
    The problem here is when the IRS was given a second bite at 
the apple, another opportunity, a second opportunity to restore 
and rebuild that trust, the IRS once again broke that trust 
with the American people, this time through the behavior of IRS 
Commissioner Koskinen.
    The facts here are really not in dispute. The commissioner 
failed to comply with the subpoena. He failed to prevent the 
destruction of evidence, in this case more than 24,000 of Ms. 
Lerner's emails. He provided false testimony to Congress on a 
number of occasions. His statement today said that he testified 
truthfully and to the best of his knowledge. But the fact is he 
didn't testify truthfully. It may have been to the best of his 
knowledge, but it was not truthful. And he failed to notify 
Congress when key evidence was missing.
    His statement offers a whole range of excuses that the 
erasure of tapes was an accident, that he personally didn't 
erase them. Even goes so far as to say that he never even asked 
to be the IRS commissioner in the first place, but all of that 
misses the point.
    As Harry S. Truman said, the buck stops here. It stops at 
the top. And once Commissioner Koskinen assumed the mantle of 
responsibility, he deserves to be, and ought to be, held 
responsible for any misconduct. When any official misleads the 
American people and their elected Representatives when they 
obstruct an investigation and they allow the destruction of key 
evidence, action has to be taken and has to be taken whether or 
not that's done intentionally, or knowingly, or whether it's 
done just through gross negligence. Whether it's through such 
reckless ignorance that it allows the truth to be forever 
obfuscated from the American people.
    I wish that Commissioner Koskinen had chosen to be here 
today. I would have a number of questions for him. He's 
indicated he may come back before this Committee. I hope that 
he does. And if he does, I will give him advance warning of 
what we'd like to know. And that is, I'd like to know why 
despite learning in February of 2014 that thousands of Lerner 
emails were missing, the IRS never even tried to recover the 
backup tapes. Was that intentional or was it just a result of 
incompetence?
    I would like to ask him why the IRS failed to look in five 
of the six places where the emails could have potentially been 
recovered. Again, was that something that was intended to 
mislead or was it just plain stupidity? I would ask the 
commissioner why he failed to notify Congress about the missing 
emails for several months despite a prior commitment on the 
record to be transparent and to notify us as soon as any 
problem arose.
    I'd ask why he falsely testified to Congress when he said 
``Since the start of this investigation, every email has been 
preserved, nothing has been lost, nothing has been destroyed.'' 
Less truthful words have likely never been spoken before this 
Committee. I would like to ask the commissioner why he said 
those words in here under oath but unfortunately he's not here. 
Despite the serious allegations leveled against him he's 
declined to participate.
    But the American people here deserve to know why they were 
misled. They deserve to know that the government officials are 
not above the law and that's what this hearing is about. And 
again, whether or not his actions were intentionally taken to 
deceive or whether he was so clueless, so incompetent, so 
grossly negligent, as to obfuscate the truth forever, we may 
not know. Either way, the commissioner has convinced me that he 
is not fit to lead an agency that is has so much power and 
influence over the lives of every American.
    And that concludes our hearing today. I thank our 
distinguished witnesses for attending.
    Without objection all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Mr. Ratcliffe. With that, this hearing is adjourned.
    [Whereupon, at 12:32 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Questions for the Record submitted by the Honorable Henry C. (Hank) 
 Johnson, Jr., a Representative in Congress from the State of Georgia, 
    and Member, Committee on the Judiciary, to the Honorable Jason 
     Chaffetz, a Representative in Congress from the State of Utah

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                                       
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
